<html>
<title> - SEAPORT SECURITY AND SHIP PASSENGER SECURITY</title>
<body><pre>[Senate Hearing 107-1046]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 107-1046

                       SEAPORT SECURITY AND SHIP 
                           PASSENGER SECURITY

=======================================================================

                             FIELD HEARING

                               before the

       SUBCOMMITTEE ON SURFACE TRANSPORTATION AND MERCHANT MARINE

                                 of the

           COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 9, 2002

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



89-641              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

              ERNEST F. HOLLINGS, South Carolina, Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska
    Virginia                         CONRAD BURNS, Montana
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
JOHN B. BREAUX, Louisiana            KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
RON WYDEN, Oregon                    SAM BROWNBACK, Kansas
MAX CLELAND, Georgia                 GORDON SMITH, Oregon
BARBARA BOXER, California            PETER G. FITZGERALD, Illinois
JOHN EDWARDS, North Carolina         JOHN ENSIGN, Nevada
JEAN CARNAHAN, Missouri              GEORGE ALLEN, Virginia 
BILL NELSON, Florida
               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel
      Jeanne Bumpus, Republican Staff Director and General Counsel
                              ----------                              

                 SUBCOMMITTEE ON SURFACE TRANSPORTATION 
                          AND MERCHANT MARINE

                  JOHN B. BREAUX, Louisiana, Chairman
DANIEL K. INOUYE, Hawaii             GORDON SMITH, Oregon
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska
    Virginia                         CONRAD BURNS, Montana
JOHN F. KERRY, Massachussetts        TRENT LOTT, Mississippi
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
RON WYDEN, Oregon                    OLYMPIA J. SNOWE, Maine
MAX CLELAND, Georgia                 SAM BROWNBACK, Kansas
BARBARA BOXER, California            PETER G. FITZGERALD, Illinois
JEAN CARNAHAN, Missouri              JOHN ENSIGN, Nevada
JOHN EDWARDS, North Carolina


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on January 9, 2002..................................     1
Statement of Senator Breaux......................................     1
    Prepared statement...........................................     4

                               Witnesses

Allen, Phillip C., Interim Director of Port Everglades...........     7
    Prepared statement...........................................    10
Carmichael, Rear Admiral James, Commander, Seventh District, U.S. 
  Coast Guard, Department of Transportation; accompanied by 
  Captain James Watson, Captain of the Port, Miami...............    29
    Prepared statement...........................................    32
Bulger, John M., District Director, Miami District, Immigration 
  and Naturalization Service.....................................    37
    Prepared statement...........................................    39
Shaw, Hon. E. Clay, Jr., U.S. Representative from Florida........     5
Thompson, Ted, Executive Vice President, International Council of 
  Cruise Lines; accompanied by Steve Nielsen, Vice President of 
  Caribbean and Atlantic Operations for Princess Cruises; Captain 
  Bill Wright, Senior Vice President of Safety and Environment 
  for Royal Caribbean International; and Nick Schowengerdt, Vice 
  President of Security, Holland America Line....................    19
    Prepared statement...........................................    21
Towsley, Charles A., Director of the Port of Miami...............    11
    Prepared statement...........................................    13
Winkowski, Thomas S., Acting Director for Field Operations in 
  South Florida, U.S. Customs Service............................    34
    Prepared statement...........................................    35
Zagami, Anthony, President and CEO of Security Identification 
  Systems Corporation (SISCO)....................................    42
    Prepared statement...........................................    43

 
                       SEAPORT SECURITY AND SHIP 
                           PASSENGER SECURITY

                              ----------                              


                       WEDNESDAY, JANUARY 9, 2002

                               U.S. Senate,
Subcommittee on Surface Transportation and Merchant 
                                            Marine,
        Committee on Commerce, Science, and Transportation,
                                                 Ft. Lauderdale, FL
    The Subcommittee met, pursuant to notice, at 1:30 p.m. at 
the Port Everglades Auditorium in Ft. Lauderdale, Florida, Hon. 
John B. Breaux, Chairman of the Subcommittee, presiding.

           OPENING STATEMENT OF HON. JOHN B. BREAUX, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Breaux. The Committee will please come to order. If 
we could have everybody's attention. Thank you all for being 
with us this afternoon. We are still getting some more chairs.
    If you can find a place, please take a seat. We would love 
to have you sitting down, if you can. Thank you all very very 
much.
    We have just convened a Committee hearing of the Senate 
Commerce Committee's Subcommittee on Surface Transportation and 
the Merchant Marine of which I, Senator John Breaux of 
Louisiana, have the privilege of chairing in Washington.
    I cannot tell you how delighted and how nice it is to have 
the Committee outside of Washington, DC., here in the beautiful 
area of South Florida, and particularly here in Congressman 
Clay Shaw's district, and have a field hearing which is the 
first of three hearings that we're going to have, the first 
today in Port Everglades.
    Tomorrow we will be in my State having a hearing at the 
Board of New Orleans after which we will go to Houston and have 
the final hearing in this series on port security at the Port 
of Houston and then returning to Washington, DC.
    On any given day in Washington you may have as many as 20 
committees holding hearings, so it's always a pleasure and a 
great opportunity when we can get outside of our Nation's 
capital and visit the real areas that we try to do work on and 
then try to influence various issues that people back home are 
working on every day.
    We actually learn a lot more when we get outside of 
Washington and have an opportunity to visit with local people.
    I want to thank all the people who have been so kind and 
courteous to the Members of my Subcommittee and the staff, 
particularly the Coast Guard, the Immigration and 
Naturalization Service, the U.S. Customs and the commissioners 
from the county who were with us as we arrived yesterday and 
thank them for their help as well as the port officials and 
also the representatives of the cruise industry which are very 
important to this area. They have all been very, very helpful 
and we appreciate their help and assistance.
    I want to particularly acknowledge the presence of 
Congressman Clay Shaw, and I will ask him if he has a comment 
or two, after I make my opening comments.
    The legislation that we're dealing with is the legislation 
that has already passed the U.S. Senate, the Port and Maritime 
Security Act.
    One of the earliest sponsors of that legislation was 
Florida's U.S. Senator, Bob Graham, who--long before September 
11th--was involved in helping put together legislation 
affecting port security and maritime security.
    That legislation has now evolved from legislation aimed at 
trying to enforce criminal laws in ports and to doing a great 
deal more work in the area of preventing terrorism in our 
Nation's ports.
    As I said, that legislation, which I'm a sponsor of as 
well, has unanimously passed the U.S. Senate. It has not yet 
passed the House of Representatives, but Congressman Clay Shaw 
will be one of the leaders in the House in trying to put 
together legislation.
    The emphasis in the past has been, to a great extent, on 
airline security in the airports in this country. To a certain 
extent we, in Congress, have neglected that aspect.
    We, and the Congress, have worked very hard on airline 
security and airport security, but we have not done nearly as 
good a job in looking at the question of how we ensure that 
people--who use the ports, the shippers, importers, exporters 
and passengers--can also feel safe and secure in the knowledge 
that everything possible is being done.
    There really has never been any kind of unified national 
Federal plan dealing with the Internet, or seaports, around 
this country and that's something that probably should have 
been done a long time ago.
    Now, obviously because of the events of 9/11, we're now 
looking at ways we can be involved with local governmental 
bodies on a county and on a State basis to try and coordinate 
our efforts to make sure that security at the ports is being 
done in the best possible fashion.
    The Bush Administration has supported the legislation and 
is expected to sign the legislation when it has completed its 
passage through the House of Representatives.
    Let me give you an outline, for those of you who may not 
have followed as closely, what the Port and Maritime Security 
Act basically does.
    First, it sets up local port security committees to better 
coordinate the efforts of the Federal, State, local and private 
law enforcement agencies.
    This is very important because when everybody's in charge, 
nobody's in charge and it is very important for our ports to 
have a system of coordinating the local government input and 
the State government input as well as our Federal agencies so 
that everybody will know what everybody else's responsibility 
happens to be.
    The bill also mandates, for the very first time, that all 
ports have a comprehensive security plan.
    I think this port already has one in place, but there are 
many ports around the country that do not have any kind of a 
comprehensive security plan governing their ports and that is 
unacceptable and should not be allowed to continue.
    The bill will also require ports to limit access to 
security sensitive areas, to restrict firearms and other 
weapons and to develop an evacuation plan, to conduct 
background checks of all of their employees working in security 
sensitive areas.
    Many ports do this to one degree or another and then there 
are some ports that do it very haphazardly and we cannot allow 
that to continue either.
    It requires ships to electronically send their cargo 
manifests to a port before gaining clearance to enter those 
ports and prohibits unloading improperly documented cargo.
    That provision is not without some controversy. Many people 
have said that it puts an undue burden on the shipping business 
and freight forwarders have given us their comments about their 
concerns about the requirement to provide the cargo manifest to 
the port authority before the ships enter the ports.
    We will try to figure out a way to make sure that this is 
done with a minimum degree of disruption. The bill also 
improves the reporting of crew members, passengers, and 
imported cargo to allow officials to better track any 
potentially suspicious activity.
    This legislation also creates a Sea Marshal Pilot program 
that has already been started involving Sea Marshals to, more 
specifically, authorize the Coast Guard to board ships entering 
U.S. ports in order to make sure that nothing is occurring that 
is out of the ordinary.
    It also directs that there would be financial grants and to 
upgrade security infrastructure at our ports.
    The legislation also authorizes $703 million in the Senate 
passed bill to upgrade security infrastructure. A lot of ports 
are going to need some help. They cannot do it by themselves 
and also to provide new inspectors, agents, screening and 
detection equipment to the ports, and to Customs and to 
inspectors in order to do their jobs.
    It will also guarantee up to about $3.3 billion in loans 
for ports to upgrade security infrastructure giving them access 
to necessary monies in order to get the job done.
    It also authorizes the spending for research and 
development of cargo inspection technology. We probably inspect 
only about 2 percent of the cargo coming into the ports of the 
United States.
    Obviously that means 98 percent of it is not being 
inspected and technology is going to have to be improved. You 
cannot physically open every container and every box that's 
coming into Port Everglades and look at it physically, so you 
have to develop new technology to do this more effectively and 
more efficiently.
    Let me now, if I could, before I introduce our first panel, 
call on Congressman Clay Shaw for any comments that he might 
make.
    There's still time to influence this legislation. I have 
just outlined what the Senate did, but the House obviously has 
authority to do whatever they want on this legislation.
    They can improve it and hopefully they will look for ways 
to do that. One of the major players involved in that 
discussion is going to be your own Congressman, Clay Shaw, and 
we're delighted to have him with us this afternoon.
    [The prepared statement of Senator Breaux follows:]
 Prepared Statement of Hon. John B. Breaux, U.S. Senator from Louisiana
    I would like to welcome everyone to this field hearing of the 
Senate Commerce Subcommittee on Surface Transportation and Merchant 
Marine. Those of us on the subcommittee appreciate the warm welcome and 
hospitality shown to us by Representative Clay Shaw, your local 
officials from Broward and Dade Counties, and your port authority 
directors.
    On any given day on Capitol Hill, as many as 20 congressional 
hearings can take place at one time. At these hearings, we call upon 
policy experts to enlighten us with new ideas for improving the safety, 
security and prosperity of our country.
    But it is good to get outside of Washington. We need to hear new 
voices with fresh ideas. Conducting these field hearings helps us learn 
more about the challenges facing local citizens, local governments, and 
local businesses as they try to improve the quality of life in their 
communities.
    And touring the places and facilities directly impacted by our 
public policies and new laws helps us learn more about what is 
happening on the ground--where the rubber meets the road--or, in the 
case of Port Everglades, where the hull meets the waves.
    Port Everglades is an impressive operation. Originally known as 
Lake Mabel, Port Everglades was officially established as a deep water 
harbor in 1927. The port has since grown to the point that nearly 6,000 
ships call on Port Everglades every year. The port processes 2.7 
million cruise line passengers each year and handles 23 million tons of 
liquid, break bulk and containerized cargo.
    This morning we witnessed a Coast Guard security exercise and 
toured the passenger terminal at Port Everglades to review security 
practices. As a result, we better understand the challenges this 
community faces at its seaport. I was generally impressed with the 
level of security for the cruise industry, but we must continue to be 
vigilant due to the current threats we face.
    The security of our sea and river ports has rarely been the focus 
of our national security plans. We have invested millions of dollars to 
protect our airports and our land borders, but very little toward 
making sure that the goods and people arriving at our ports do not 
jeopardize our security.
    There is no unified Federal plan for overseeing security at the 
international borders of our seaports. Right now the responsibility of 
building secure seaports rests with States like Florida, its port 
authorities, and the private sector. That was a poor model for national 
security when we were fighting drugs and international smuggling--and 
it is totally inadequate after September 11th as we face the threat of 
terrorism.
    Senator Bob Graham, who could not be here today, has led the charge 
in Congress to improve security at our seaports. And the State of 
Florida has been a great leader in this area, investing its own State 
resources to address seaport security when the Federal Government 
failed to step in.
    Senator Hollings, Senator Graham and myself introduced a seaport 
security bill in the summer of 2000. We re-introduced the legislation 
again in the current Congress, and we passed it out of the Commerce 
Committee last August by a unanimous vote.
    But seaport security was still a low-profile issue--until the 
terrorist attacks of September 11th. Suddenly the vulnerabilities we 
face at our seaports were brought into sharp focus. I immediately 
convened a subcommittee hearing on the issue during which we heard some 
truly horrific scenarios about the potential use of our seaports by 
terrorists. I then worked with other Members of our committee to 
dramatically expand the legislation to address these new threats of 
terrorism. The Bush Administration endorsed the bill, and we passed it 
through the Senate by unanimous consent in December.
    S. 1214, The Port and Maritime Security Act:
    <bullet> Sets up local port security committees to better 
coordinate the efforts of Federal, State, local, and private law 
enforcement agencies.
    <bullet> Mandates for the first time ever that all ports have a 
comprehensive security plan.
    <bullet> Requires ports to limit access to security-sensitive 
areas, restrict firearms and other weapons, develop an evacuation plan, 
and conduct background checks of employees working in security-
sensitive areas.
    <bullet> Requires ships to electronically send their cargo 
manifests to a port before gaining clearance to enter, and prohibits 
the unloading of improperly documented cargo.
    <bullet> Improves the reporting of crew members, passengers, and 
imported cargo to better track suspicious activity.
    <bullet> Creates a Sea Marshal program to more specifically 
authorize the Coast Guard to board ships entering U.S. ports in order 
to deter hijackings or other terrorist threats.
    <bullet> Directly grants and authorizes $703 million to local ports 
to upgrade security infrastructure, and to the U.S. Customs Service for 
new inspectors, agents, screening and detection equipment.
    <bullet> Guarantees up to $3.3 billion in loans for seaports to 
upgrade security infrastructure.
    <bullet> Authorizes spending for the research and development of 
cargo inspection technology to make cargo inspections quicker yet more 
thorough.
    Some of our passenger cruise lines and shipping companies may worry 
that these new procedures requiring more security and customs checks 
will slow the processing of passengers and the flow of international 
commerce. But new technology is the key to speeding these passenger and 
cargo clearance processes--while at the same time making the entire 
system more secure. As we did in the airline security bill, we can 
strike the balance between increased security and the convenience of 
our open country and economy.
    While The Port and Maritime Security Act unanimously passed the 
Senate, I am still focusing my attention toward getting this 
legislation through the House of Representatives. We need to keep the 
spotlight on this issue of national security and learn all we can about 
the terrorist threats we face.
    That is why we need the help of our witnesses today. There is still 
time to incorporate new ideas into the seaport security legislation 
when we eventually reach a conference committee with the House to draft 
a final version of the bill.
    Since we are in Port Everglades, I want to especially focus today 
on ship passenger security. After we hear from Representative Shaw, our 
first panel will feature the port authority directors and 
representatives of the cruise lines. Our second panel will feature the 
law enforcement agencies responsible for seaport and passenger 
security, along with the president of a company that has invented 
passenger screening technology.
    I understand that we need to balance the need for public testimony 
and debate about seaport security with the need to keep confidential 
any information that, if revealed, could harm security efforts. So I 
would urge our witnesses to not disclose any information that would 
jeopardize current security arrangements or security planning.
    I want to hear from our witnesses about what works in the area of 
passenger screening--and how we can do a better job. I also want to 
hear your opinions about whether passenger screening is adequate at 
foreign ports. If foreign ports do not meet high security standards, it 
makes our security efforts here much more difficult. And I want to hear 
about the problems you all face in making this community and our 
country more secure from foreign passengers and crew members arriving 
on these ships who might do harm to America.
    Of particular interest is how we can better coordinate these 
security functions among all the Federal, State, local and private law 
enforcement agencies that converge at our ports. I understand that you 
have all increased your law enforcement coordination efforts since 
September 11th. Now we need to know what new authorities, funding or 
tools you might need to help make our seaports, your community, and our 
Nation a safer place.

             STATEMENT OF HON. E. CLAY SHAW, JR., 
                U.S. REPRESENTATIVE FROM FLORIDA

    Mr. Shaw. Thank you. I want to welcome Senator Breaux. My 
wife Emily and I have known the Senator and his wife for over 
21 years, going back to when he was in the real thick of things 
in the House of Representatives before he decided to descend to 
the Senate.
    He was one of the rising stars in the House, so you can 
well imagine that he's one of the superstars in the Senate.
    It's a pleasure and I want to thank you for allowing me to 
sit with you at this most important hearing.
    I do have a prepared statement which I understand needs 
some correction, and I will at the appropriate time, if we can 
keep the record open, submit it for the record. (Not available 
at time of printing.)
    I'm very privileged to represent a piece of the Port of 
Miami, all of Port Everglades, and the Port of Palm Beach.
    I have been very concerned with port security both from a 
staffing point of view in doing background checks and matters 
pertaining to security. Of course, we have great cooperation 
from the county commissions in Miami-Dade, Broward, and Palm 
Beach Counties in doing just common sense type things. We have 
come a long way.
    The bill that Senator Breaux just outlined, I had filed an 
identical bill in the House, and the companion bill is Senator 
Graham's bill.
    As many of you know, and particularly for those of you in 
the maritime industry, Senator Graham has done a great deal of 
work with regard to port security as I have.
    He was here in this port within the last couple of weeks 
during one of his ``Day Jobs.'' Every once in a while a Senator 
does have to work and he was on one of these with the Customs 
Department. Senator Graham has a very keen interest in this 
particular subject and he has really done a wonderful wonderful 
job and I'm privileged to be able to work with him.
    I must say, John, that it was a rather historic significant 
event when the Senate was able to pass something before the 
House had. Occasionally that does happen and I'm sure it's 
because of your leadership and concern for this particular area 
and I wish the House had had the ability to move before the 
break.
    We needed some meaningful legislation that would bring the 
Republicans and the Democrats together and that's one of those 
areas in which we do work very closely together.
    Congressman Don Young is the chairman of the Transportation 
and Infrastructure Committee that will have jurisdiction over 
this matter in the House and I understand that he will be 
putting together his own bill and he will be using Senator 
Graham's bill and my bill somewhat as a guide. He will be 
putting some differences in, so I'm sure that you will be 
looking forward to conferencing with him and the appropriate 
Members when the time comes.
    Welcome to Port Everglades.
    Port Everglades was a port that was most secure under 
1950's and 1960's technologies. As you can see, we are a very 
open port, and now, particularly after the events of 9/11, 
we're having to take a very close look at where we are, where 
we're going, and what is the future of this port. This port 
definitely has to be equipped with much more security.
    The Port of Miami, which you're also familiar with, from 
just a standpoint of its geographical location, is more secure 
because there is only one way in and one way out.
    Whereas, here in Port Everglades, we have several areas 
eventually with ingress and egress from the port, and plus, we 
do have the time qualms and other matters which are a great 
concern.
    Mr. Chairman, I share your concern regarding container 
inspections. We do need to investigate much more than the 2 
percent of the containers that are coming in because the 
technology is out there with extra equipment and various other 
sensory devices.
    The terrorists are a little bit ahead of us, but we're 
catching up in closing that gap and the Senate is certainly 
taking a giant leap in closing that gap with the passage of 
this legislation.
    I look forward to your hearing and express my appreciation 
for your including me in this hearing.
    Senator Breaux. Thank you very much, Congressman Shaw. Let 
me tell you that people in Louisiana love coming to Florida 
except when it's to play football. We don't do too well.
    We would like to just say a very sincere thanks to all of 
our hosts. You have been very good to all of our staff and all 
of our people here are delighted.
    It certainly makes our job of finding out information 
easier and also producing information that will be ultimately 
very helpful when we return to Washington.
    We will have a panel and then a second panel. The first 
panel is already seated at the table and that will be Mr. Phil 
Allen who is the interim director of Port Everglades and also 
Charles Towsley who is director of the Port of Miami.
    So we have two of our major port facilities right here and 
we're delighted to have them with us. They have been visiting 
with us for a couple of hours and I want to give them the 
opportunity to officially tell this Committee, and others who 
will be reading this Committee's proceedings, what it is you're 
doing at both Port Everglades and the Port of Miami.
    Phil, do you want to go first?

    STATEMENT OF PHILLIP C. ALLEN, INTERIM DIRECTOR OF PORT 
                           EVERGLADES

    Mr. Allen. Thank you, Mr. Chairman, Congressman Shaw, and 
members of the audience.
    I have provided copies of my testimony to your staff and 
for the record. Let me go through that and give more detail and 
then I would be pleased to answer questions that you may have.
    Port Everglades serves many diverse maritime and 
transportation interests within our jurisdictional boundaries 
including containerized cargo, shipping, petroleum shipping, 
and the cruise industry.
    The cruise industry has grown significantly in the last 
decade to become our single largest revenue producer.
    In fact, this past weekend alone we served 22 ships and 
approximately 50,000 passengers.
    On the local level, the Port supports approximately 15,000 
jobs resulting in $414 million in personal income and $149 
million in taxes annually.
    Prior to our Nation's experiencing it's second day of 
infamy, Port Everglades developed a number of security 
mechanisms to ensure that our port utilizes the best practices 
available to encounter drug smuggling and other criminal issues 
associated with seaports.
    After September 11th, however, we have had to reevaluate 
our security needs to include protecting the Port and its 
customers from possible acts of terrorism.
    Today, in addition to providing a crime free work 
environment for our clients, we are prepared to guard our 
assets against the threat of terrorism.
    Our commitment to this belief is evidenced in the testimony 
provided in this letter. Port Everglades is host to more than 
three million cruise passengers annually making it one of the 
busiest cruise ports in the world.
    While the safety of our passengers has always been a top 
priority, the tragic events of September 11th have 
significantly changed the way we provide security.
    Broward County had previously committed to constructing a 
$12 million security project over the next 4 years. After 
September 11th, the Board of County Commissioners of Broward 
County approved construction of a $25 million expanded program 
and directed staff to complete the project within 13 months.
    The refocus of our security project has resulted in 
reprioritizing $13 million from other capital infrastructure 
projects many of which are important to our port's financial 
stability.
    We are in the process of developing licensing requirements 
for all private guard services within the Port, and included 
within the licensing requirements will be a mandatory training 
and certification for all private guards working within Port 
Everglades.
    Our criteria will be developed input from the Broward 
Sheriff's Office and Federal agencies servicing the Port.
    We believe that the current training requirement of 40 
hours, established under Florida statute, is inadequate to 
provide the training necessary to protect this critical 
component of the Nation's transportation system.
    We believe that, at least, an additional 40 hours of 
seaport specific training are necessary to ensure that guards 
are competent and well trained.
    Broward County has had a background check policy for the 
issuance of restricted zone permits, ID cards, since July 14, 
1998, similar to that outlined in U.S. Senate bill 1214 that 
the Senator has mentioned.
    We process and issue 13,000 restricted area asset permits 
annually to individuals working within the Port.
    As a result of the enhanced restricted use zone policy that 
identifies individuals with exclusionary felonies, more than 
400 individuals have been denied access to sensitive cargo 
areas.
    As proof of this success of our policy, we have experienced 
a reduction of more than 31 percent in Part One crimes since 
its inception and implementation 3 years ago.
    Port staff is currently working with architects and 
construction companies to further develop our security plan for 
the construction of our enhanced infrastructure.
    Our construction plans include a concrete wall around the 
entire perimeter of the petroleum areas, roadway access gates 
at the three entrances to the port, camera monitoring of all 
county-owned facilities, and electronic access controls of 
vehicles and personnel to highly vulnerable cruise passenger 
areas and waterfront restricted access areas.
    All access control devices, closed circuit television, and 
intrusion alarm systems installed in cruise terminals will be 
monitored by the sheriff's office staff. A redundant closed 
circuit television monitoring system will ultimately be located 
at the U.S. Customs offices.
    Focusing on containerized cargo, the port has purchased 
Star System Gamma X-ray equipment designed to enhance law 
enforcement efforts to stop the exportation of stolen 
automobiles and heavy construction equipment from this country.
    In addition to these security enhancements and acceleration 
of our security project, we're contractually increasing our 
present staff of 75 Broward Sheriff's Office personnel to 120 
permanently assigned employees.
    The previous annual cost for this service was $4.2 million, 
but it is anticipated to increase by $2 million with those 
additions.
    While we have taken extraordinary measures to secure our 
facility with additional deputies, SWAT teams, and law 
enforcement vessels in the harbor, it has not been enough.
    To ensure that the private security firms protecting our 
cruise passengers and vessels were adequate, we requested and 
received a contingent of 141 Florida National Guard troops in 
November.
    We thought we had been granted this contingent for a 6-
month period.
    These troops are overseeing private security operations and 
augmenting the Broward Sheriff's Office at our cruise 
terminals. They are also assisting the Broward Sheriff's office 
with checkpoint security and roving patrols throughout our 
petroleum terminals.
    Understanding that Level III security requirements 
established by the U.S. Coast Guard are not anticipated to 
diminish, once the Florida National Guard has withdrawn in 
March, we are uncertain about how we are going to continue to 
provide this vital level of security.
    We believe it's imperative to federalize the Guard troops 
assigned to Port Everglades until such time as the port's 
security project has been completed and is, in fact, 
functioning.
    Mr. Chairman, I must advise you that we have just received 
word that the Governor's office is reducing our Guard 
contingent by 50 percent on this Friday and we are told that 
there is limited State funding available for continuation of 
the program.
    This reinforces the need to federalize the port's guard 
contingent just like our Nation's airports. Our three million 
passengers a year is equivalent to a medium hub airport of 
which there are 88 such airports, but with fewer passengers per 
year than we handle here at Port Everglades, such as 
Birmingham, Norfolk, Houston and Charleston.
    Our exposure to attack is no less than this Nation's 
airports. Once that project is completed, we believe then that 
effective security for Port Everglades will be greatly enhanced 
with the compilation of new security infrastructure, increased 
presence of the Broward Sheriff's Office personnel, licensing 
and increased training of all security guard services 
throughout the port.
    These actions will enable us to meet the needs of Level III 
security required to protect this vital transportation link.
    In closing, we're moving forward to provide the most 
effective and efficient port security measures anywhere in the 
United States, but it's not without sacrifice to the growth of 
our commerce.
    With Federal assistance, this will ensure that our 
businesses and critical infrastructure are protected and that 
adequate funds are available to support our goals.
    We must also address such security measures on a Federal 
level to ensure our port is not economically disadvantaged to 
another port that is less concerned with heightened security 
measures.
    Thank you for this opportunity today to provide this 
information to you and I would be glad to answer your questions 
at your convenience.
    [The prepared statement of Mr. Allen follows:]

      Prepared Statement of Phillip C. Allen, Interim Director of 
                            Port Everglades

    Port Everglades serves many diverse maritime transportation 
interests within our jurisdictional boundaries including containerized 
cargo shipping, petroleum shipping and the cruise industry, which has 
grown significantly in the last decade to become our single largest 
revenue producer.
    Prior to our Nation experiencing its second day of infamy, Port 
Everglades developed a number of security mechanisms to ensure that our 
port utilizes the best practices available to counter drug smuggling 
and other criminal issues associated with seaports. After September 11, 
however, we had to re-evaluate our security needs to include protecting 
the port and its customers from possible acts of terrorism. Today, in 
addition to providing a crime-free work environment for our clients, we 
are prepared to guard our assets against the threat of terrorism. Our 
commitment to this belief is evidenced in the testimony provided in 
this letter.
    Port Everglades is host to more than 3 million cruise passengers 
annually, making it one of the busiest cruise ports in the world. While 
the safety of our passengers has always been a top priority, the tragic 
events of September 11 have significantly changed the way we provide 
security.
    Broward County had previously committed to constructing a 12 
million dollar security project over the next four years. After 
September 11, the Broward County Board of County Commissioners approved 
the construction of a 25-million dollar expanded security project and 
directed staff to complete the project within 13 months. The refocus of 
our security project has resulted in re-prioritizing 13 million dollars 
from other capital infrastructure projects--many of which are important 
to our port's financial stability.
    We are in the process of developing licensing requirements for all 
private guard services within the port. Included within the licensing 
requirements will be mandatory training and certification for all 
private guards working within Port Everglades. Our criteria will be 
developed with input from the Broward Sheriff's office and Federal 
agencies serving the port. We believe that the current training 
requirement of forty hours, established by Florida statute 493, is 
inadequate to provide the training necessary to protect this critical 
component of the national transportation system. We believe that at 
least an additional 40 hours of seaport-specific training are necessary 
to ensure that guards are competent and well trained.
    Broward County has had a background check policy for the issuance 
of restricted use zone permits (I.D. cards) since July 14, 1998 similar 
to that outlined within U.S. Senate bill 1214. We process and issue 
13,000 restricted access area permits annually to individuals working 
within the port. As a result of the enhanced restricted use zone policy 
that identifies individuals with exclusionary felonies, more than 400 
individuals have been denied access to sensitive cargo areas. As proof 
to the success of our policy, we have experienced a reduction of more 
than 31 percent in part one crimes since its implementation three years 
ago.
    Port staff is currently working with the firm of Bermello-Ajamil 
Partners Inc. and Centex-Rooney construction to further develop our 
security plan for the construction of our enhanced infrastructure. Our 
construction plans include a concrete wall around the entire perimeter 
of the petroleum areas, roadway access gates at three entrances to the 
port, camera monitoring of all county-owned facilities, and electronic 
access control of vehicles and personnel to highly vulnerable cruise 
passenger areas and waterfront restricted access areas. All access 
control devices, closed circuit television, and intrusion alarm systems 
installed in the cruise terminals will be monitored by the Sheriff's 
office staff. A redundant closed circuit television monitoring system 
will also be located at the U.S. Customs offices.
    Focusing on containerized cargo, the port has purchased ``star 
system'' gamma x-ray equipment designed to enhance law enforcement 
efforts to stop the exportation of stolen automobiles and heavy 
construction equipment from this country.
    In addition to these security enhancements and acceleration of our 
security project, we are contractually increasing the present staff of 
75 Broward Sheriff's office personnel to 120 permanently assigned 
employees. The previous cost for this service was 4.2 million dollars, 
but is anticipated to increase by 2 million dollars.
    While we have taken extraordinary measures to secure our facilities 
with additional deputies, swat teams, and law enforcement vessels in 
the harbor, it has not been enough. To ensure that the private security 
firms protecting our cruise passengers and vessels were adequate, we 
requested and received a contingent of 141 Florida National Guard 
troops in November. We were granted this contingent for a six-month 
period. These troops are overseeing private security operations and 
augmenting the Broward Sheriff's office at our cruise terminals. They 
are also assisting the Broward Sheriff's office with checkpoint 
security and roving patrols throughout our petroleum terminals.
    Understanding that the Level III security requirements established 
by the U.S. Coast Guard are not anticipated to diminish once the 
Florida National Guard has withdrawn in March, we are uncertain about 
how we are going to continue to provide this vital level of security. 
We believe it is imperative to federalize the Guard troops assigned to 
Port Everglades until such time as the port's security project has been 
completed and is functioning.
    Once that project is complete, we believe effective security for 
Port Everglades will be greatly enhanced with a compilation of our new 
security infrastructure, increased presence of Broward Sheriff's office 
personnel, and licensing and increased training for all private guard 
services throughout the port. These actions will enable us to meet the 
needs of the Level III security required to protect this vital 
transportation link.
    In closing, we are moving forward to provide the most effective 
port security measures anywhere in the United States, but it is not 
without sacrifice to the growth of our commerce. We need Federal 
assistance to ensure our businesses and critical infrastructure are 
protected and adequate funds are available to support our goals. We 
must also address such security measures on a Federal level to ensure 
our port is not economically disadvantaged to another port that is less 
concerned with heightened security measures.
    Thank you for this opportunity today to provide you this important 
information.

    Senator Breaux. Thank you, Mr. Allen.
    Mr. Towsley.

 STATEMENT OF CHARLES A. TOWSLEY, DIRECTOR OF THE PORT OF MIAMI

    Mr. Towsley. Good afternoon, Mr. Chairman, Senator Breaux, 
and Congressman Shaw, thank you for this opportunity to be with 
you this afternoon to present testimony to you.
    I have also provided a written copy of the written 
testimony that I am going to provide you today.
    The Port of Miami is the largest container port in Florida 
and we are among the top 10 in the United States.
    We have approximately 40 shipping lines calling on more 
than 100 countries and 250 ports around the world.
    Of these, 26 carriers serve 33 countries and 101 ports in 
Latin American countries and the Caribbean.
    Last year, in fiscal year 2001, the volume of cargo moving 
through the Port of Miami reached a record 8.2 million tons 
representing over 955,000 20-foot equivalent unit containers.
    Also last fiscal year, the Port of Miami processed almost 
3.4 million multi-day cruise passengers. That is our highest 
total ever.
    It has been estimated that the Port of Miami's impact on 
the community exceeds $8.7 billion and 45,000 jobs.
    As evidenced by these above figures, We are a critical link 
in the maritime industry, and more specifically, in the 
economic well being of the local region, the State, and 
nationally.
    Thus, in efforts to protect the safe movements of these 
passengers and cargo, Miami-Dade County officials and 
administrators at the Port of Miami have worked diligently in 
the past 3\1/2\ years to enhance our security operations at the 
Port of Miami.
    In 1998, port management identified security areas that 
could be tightened, and as a result of these efforts, led to 
several ground breaking and milestone security improvements 
through Miami-Dade County's seaport security legislation 
locally referred to as Chapter 28(a) of the Code of Miami-Dade.
    This security ordinance, among other things, require that 
Miami-Dade Police Department conduct criminal background checks 
on all person's working in secure areas of the seaport before 
they receive the required seaport identification badge, a 
prerequisite to working in these restricted areas.
    This practice has since been passed into law in Florida and 
will soon be implemented at all Florida deep water ports as 
defined by the State of Florida.
    Drug and smuggling interdiction has also been and will 
continue to receive the highest priority at the Port of Miami.
    The Port of Miami continues to be proactive in addressing 
all issues pertaining to security.
    In addition to working at the local level, to tighten 
security, the port is also working closely with the State and 
Federal agencies to identify funding security infrastructure 
enhancements such as high mast lighting, additional fencing, 
camera surveillance, and inspection equipment.
    Prior to September 11, these enhancements were estimated to 
cost $8 million. However, as a result of recent security 
assessments conducted by the Florida Department of Law 
Enforcement, and the Miami-Dade Police Department, and the 
Coast Guard, the port's needs for security improvements now 
exceed $24 million.
    Moreover, these assessments have also identified additional 
recurring operational needs that could, in fact, double or 
triple the port's annual security budget of approximately $4 
million.
    Although significant financial assistance will be required 
to implement those improvements, the Port of Miami has already 
invested in its security personnel.
    Presently each security officer is trained in seaport 
security procedures by law enforcement agencies involved in the 
port's operations.
    The training includes cruise and cargo procedures, tariff, 
safety operations, and how to respond to Hazmat and terrorism 
incidents.
    It is important to note that it is critical that each port 
maintain a highly trained security force dedicated to that 
port's operations.
    Additionally, the Port of Miami has actively assisted in 
organizing and regularly participates as co-chair with the U.S. 
Coast Guard on the seaport's security committee comprised of 
representatives from the Miami-Dade Police Department, the 
FDLE, U.S. Customs, the FBI, INS and others.
    Most recently the Florida National Guard has also been a 
participant with us in our security committee.
    The Port of Miami security staff works hand in hand with 
these agencies to identify and to address security issues at 
all levels to ensure safety and security of our passengers and 
maritime commerce.
    Other enhanced security measures recently implemented at 
the Port of Miami include computerized gate security, ID badge, 
and permitting systems capable of validating information from 
one to the other and the installation of four stolen automobile 
recovery system gamma ray technology machines designed to 
detect contraband vehicles or equipment inside cargo containers 
illegally moving through the port.
    Future security improvements will include security overlay 
plans on prospective development efforts at the port.
    For instance, the design of new cruise terminals, storage 
sheds, and/or parking garages, will incorporate security 
components which would not have been contemplated in the past 
at the levels now being required.
    I would be remiss, however, if I did not recognize the 
cooperation that we have received from our port users, or 
partners, as I would like to call them.
    In helping the Port of Miami to be more secure, in addition 
to spending millions of dollars in new gate systems, close 
circuit television cameras, lighting, and other security 
infrastructures, our partners have patiently endured the 
additional traffic delays resulting from the congestion 
generated by more stringent document processing and other 
security measures implemented by the port.
    The Port of Miami will continue to work with the U.S. 
Customs, the U.S. Coast Guard, the Immigration and 
Naturalization Service, the USDA, the Florida Department of Law 
Enforcement, Miami-Dade Police and the other agencies in 
strengthening security at the port.
    Before concluding my remarks today, I want to thank the 
many agencies and the officials at both the State and Federal 
levels who have demonstrated their concern for security of our 
seaports.
    As you can see, the Port of Miami has significant unfunded 
security needs which must be addressed in the near future and 
your assistance in identifying such funding will be greatly 
appreciated not only by the Port of Miami but by the entire 
maritime community. Thank you.
    [The prepared statement of Mr. Towsley follows:]

    Prepared Statement of Charles A. Towsley, Director of the Port 
                                of Miami

    Good morning. I am Charles A. Towsley, Director of the Dante B. 
Fascell Port of Miami-Dade. The Port of Miami is the largest container 
port in Florida and among the top ten in the United States. We have 
approximately 40 shipping lines calling on more than 100 countries and 
250 ports around the world. Of these, 26 carriers serve 33 countries 
and 101 ports in Latin America and the Caribbean.
    Last year, in fiscal year 2001, the volume of cargo moving through 
the Port of Miami reached a record 8.2 million tons, representing over 
955,000 twenty-foot equivalent unit containers (TEUs). Also last fiscal 
year, the Port of Miami processed almost 3.4 million multi-day cruise 
passengers, that was the highest total ever. It has been estimated that 
the Port of Miami's impact on the community exceeds $8.7 billion 
dollars and 45,000 jobs. As evidenced by the above figures, we are a 
critical link in the Maritime Industry and, more specifically, in the 
economic well being of the local region, the State, and nationally. 
Thus, in efforts to protect the safe movements of these passengers and 
cargo, Miami-Dade county officials and administrators at the Dante B. 
Fascell Port of Miami-Dade have worked diligently in the past three and 
a half years to enhance our security operations at the port.
    In 1998, port management identified security areas that could be 
tightened. The result of those efforts led to several ground breaking 
and milestone security improvements through Miami-Dade county's seaport 
security legislation, locally referred to as chapter 28a of the code of 
Miami-Dade county.
    This security ordinance, among other things, required that the 
Miami-Dade police department conduct criminal background checks on all 
persons working in secure areas of the seaport before they receive a 
required seaport identification badge, a pre-requisite to working in 
restricted areas of the port. This practice has since been passed into 
law in Florida and will soon be implemented at all Florida deepwater 
ports, as defined by the State of Florida.
    Drug and smuggling interdiction has also been and will continue to 
receive the highest priority at the Port of Miami. The Port of Miami 
continues to be proactive in addressing all issues pertaining to 
security. In addition to working at the local level to tighten 
security, the port is also working closely with State and Federal 
agencies to identify funding for security infrastructure enhancements 
such as high mast lighting, additional fencing, camera surveillance, 
and inspection equipment. Prior to September 11, 2001, these 
enhancements were estimated to cost $8.0 million. However, as a result 
of recent security assessments conducted by the Florida Department of 
Law Enforcement, Miami-Dade police department and coast guard, the 
port's needs for security improvements now exceed $24 million. 
Moreover, these assessments have also identified additional recurring 
operational needs that could, in fact, double/triple the port's annual 
security budget of approximately $4 million.
    Although significant financial assistance will be required to 
implement those improvements, the Port of Miami has already been 
investing in its security personnel. Presently, each security officer 
is trained in seaport security procedures by law enforcement agencies 
involved in port operations. The training includes cruise and cargo 
procedures, tariff, safety operations, and how to respond to hazmat and 
terrorism incidents. I think it is important to note that it is 
critical that each port maintain a highly trained security force 
dedicated to that port's operation.
    Additionally, the Port of Miami actively assisted in organizing and 
regularly participates as co-chair with the U.S. Coast Guard on the 
seaport security committee comprised of representatives from the Miami-
Dade police department, FDLE, Customs, the FBI, INS and others. Most 
recently the Florida National Guard has also been a participant. The 
Port of Miami's security staff works hand-in-hand with these agencies 
to identify and address security issues at all levels to ensure the 
safety and security of our passengers and maritime commerce.
    Other enhanced security measures recently implemented at the Port 
of Miami include computerized gate security, ID badge and permitting 
systems capable of validating information from one to the other; and 
the installation of four stolen automobile recover system gamma ray 
technology machines, designed to detect contraband vehicles or 
equipment inside cargo containers illegally moving through the port.
    Future security improvements will include security overlay plans on 
prospective development efforts at the port. For instance, the design 
of new cruise terminals, storage sheds, and/or parkIing garages, will 
incorporate security components, which would not have been contemplated 
in the past at the level now being required.
    I would be remiss, however, if I did not recognize the cooperation 
which we have received from our port users, or partners, as I like to 
call them, in helping the Port of Miami be a more secured port. In 
addition to spending several million dollars in new gate systems, 
closed circuit television cameras, lighting, and other security 
infrastructure, our partners have patiently endured the additional 
traffic delays resulting from congestion generated by the more 
stringent document processing and other security measures implemented 
by the port.
    The Port of Miami will continue to work with U.S. Customs, U.S. 
Coast Guard, Immigration and Naturalization Service, USDA, Florida 
Department of Law Enforcement, Miami-Dade police and other law 
enforcement agencies in strengthening its security.
    Before concluding my remarks today, I want to thank the many 
agencies and officials at both the State and Federal levels who have 
demonstrated concern for security in our seaports. As you can see, the 
Port of Miami has significant unfunded security needs which must be 
addressed in the near future and your assistance in identifying such 
funding will be greatly appreciated not only by the Port of Miami but 
also by the entire maritime community.
    Thank you very much for your attention.

    Senator Breaux. Thank you very much gentlemen for your 
presentations, and of course, being willing to work with the 
Committee on this legislation and giving us your thoughts and 
ideas.
    Let me ask both of you. Who is in charge of security at the 
Port of Miami and who is in charge of security at Port 
Everglades?
    Mr. Allen. As I said this morning during the presentation, 
and in response to your question, the port director has 
ultimate responsibility for security within the port.
    We, however, contract with the Broward Sheriff's Office to 
enforce the law enforcement activities. We work very closely 
with the U.S. Coast Guard in enforcing their requirements 
throughout the port.
    We were fortunate, just as in Miami through the leadership 
of the Marine Safety Office, and the U.S. Coast Guard, we had 
earlier implemented the security committee as required under 
Senate bill 1214.
    We did that early this summer and we found it to be of 
extreme assistance to us in the event of a September 11 and 
thereafter.
    That's been a very useful process and a very good process 
for all law enforcement and for users to come together to focus 
all of those attentions on port security.
    Senator Breaux. How many groups, or individuals, or 
organizations, or governmental bodies are involved in the 
security at Port Everglades?
    Mr. Allen. As part of the membership of our safety 
committee, it's approximately 12 individual agencies or users 
groups that are involved.
    Senator Breaux. Is there a great deal, or is there some 
overlapping of their responsibilities?
    Mr. Allen. We found, through that coordination of the 
Committee, what overlap could possibly exist has been 
mitigated.
    They have each brought individual elements to the table and 
through our joint discussions have been able to assign 
responsibilities among all of the agencies.
    Senator Breaux. I take it that the contract with the 
Sheriff's Department is relatively new?
    Mr. Allen. It has expanded. We have had the Broward 
Sheriff's Office under contract for the last 3 to 4 years and 
we're just in the process of amending that now for the enhanced 
level of security.
    Senator Breaux. When the National Guard departs, you would 
be losing approximately, what, and if they removed all of them, 
how many personnel would you be losing?
    Mr. Allen. There's a total assignment of 141 of the Guard's 
troops. The proposal, as we understand it, is a 50 percent 
reduction immediately and tapering off to a total disbanding of 
the force by the end of March.
    Senator Breaux. I heard that the Sheriff's Department was 
in the process of adding an additional 100, or so personnel for 
this type of work. Is that your understanding?
    Mr. Allen. I know that in our case we have asked them to 
increase personnel under our contract by about 60 positions.
    I think they're expanding their force and their service to 
the airport also under a similar contractual arrangement, but 
they are not back to do that.
    In fact, one of the opportunities that was available to us 
with the National Guard coming on board, after 9/11, the 
Broward Sheriff's office in support of our efforts to secure 
the port, and the airport, expanded a great deal of manpower.
    In support of that, they went to a twelve-hour shift per 
day and that has a way of wearing down personnel very quickly 
because they just did not have the staff to support that on a 
continuing basis.
    The National Guard has provided the opportunity to reduce 
somewhat the hours from those uniformed personnel and allow 
them to enjoy other parts of their lives other than just 
securing the port.
    Senator Breaux. What about Mr. Towsley who is in charge of 
security at the Port of Miami?
    Mr. Towsley. I would concur with many of the statements 
made by Mr. Allen in terms of the way we are organized.
    I would like to emphasize the importance that we have found 
of the security committee as he has mentioned. They have 
functioned very well in times of crisis. They have brought us 
together, the multiple agencies which, in fact, as you know, do 
have different mandates and do have different chains of command 
and do have different levels of reporting information 
particularly in areas of confidentiality and clearance.
    There are still some issues, I believe, and I would refer 
you to those agencies in terms of cross communications of that 
information at certain clearance levels which can be 
problematic.
    For example, the port director, who is in charge of certain 
security elements within the port, does not necessarily have 
all the clearances to get all of the information from those 
agencies in terms of details with certain crises at times. 
That's an issue that we need to address.
    Senator Breaux. Is it the Dade County Sheriff's Department 
that has the overall responsibility for security?
    Mr. Towsley. In Miami-Dade County, the Miami-Dade Police 
Department is a sister department of the seaport within the 
county, so we have their services at the port as a function of 
county government.
    I have been at the Port board, and it will be 4 years on 
January 19th of this month, and all the time I've been there 
the Miami-Dade County Police have been the contingency and our 
security force.
    What we have recently done is also put them in charge of 
our civilian security officers so that we have a more cohesive 
management system across the board being directed by the same 
management personnel.
    Senator Breaux. Do you also have the Florida National Guard 
at the Port of Miami?
    Mr. Towsley. Yes, we do. We had the National Guard at the 
port assisting in drug interdiction prior to September 11th, 
and into November when the Guard was called out to our seaports 
in Florida.
    We are also highly concerned with the prospect of having 
those forces reduced by half at the port.
    We will need to supplement those deployments at critical 
positions in order for us to be able to satisfy the Coast 
Guard, and other agencies, with respect to our passenger 
security and security commerce at the port.
    Senator Breaux. Do you have private security concerns 
involved at the Port of Miami as well?
    Mr. Towsley. As with the other ports, quite often our 
users, the cruise lines, will and do have private security 
contracts.
    Our responsibility is, and one of the functions that we've 
been working on with the National Guard to do, is to ensure 
that their private security components are, in fact, enforcing 
and complying with security processes where required at the 
port.
    Senator Breaux. The inspection of luggage that goes onto 
the ships, I take it, that it's a ship's responsibility and not 
the port's responsibility?
    Mr. Towsley. That is correct.
    Senator Breaux. I will ask other questions on that later. 
Congressman Shaw.
    Mr. Shaw. I just have a couple areas that I would like to 
go over.
    Mr. Allen, this morning you said something about $75 
million in revenue that the port brings into Broward County. 
Both the Senator and I were a little surprised by that because 
we anticipated that it would be higher than that.
    Will you expand on that and tell us what the net revenue 
would be after expenses, or are you budgeted that way?
    Mr. Allen. Not overall revenue. In fact, the number that I 
was quoting you in the testimony here was over a year old.
    That number, for this past fiscal year ending September 30, 
2001, was, in fact, approximately $80 million.
    Our net income revenues, less expenses, including 
depreciation is approximately $12 million. That $12 million is 
ploughed right back into the infrastructure of the port. None 
of that money is used for general governmental services. It all 
stays here within the port.
    Mr. Shaw. Mr. Towsley, can you give us a similar analysis?
    Mr. Towsley. Yes, we are similar. We have a proprietary 
department within Miami-Dade County which means that we are 
self sufficient in that we operate under our operating 
revenues.
    The last fiscal year, ending the end of September, and 
similar to Port Everglades, our revenues were $76 million with 
a similar breakdown in terms of expenses.
    Ports, by their nature, are somewhat debt heavy in that a 
lot of our investment is in infrastructure in the long term, so 
that close to half of our income goes to operating debt and 
then the remainder to our operating expenses.
    We operate on a very narrow margin. We have operated in the 
black since I have been there in 1998, and we do put aside 
dollars for our capital program and our reserves.
    Mr. Shaw. A number of years ago Customs brought to my 
attention the background checks from a sampling of the dock 
workers which was quite startling.
    The criminal records showed that most were involved in 
drugs and we found that approximately half of that particular 
sampling had criminal records or rap sheets.
    I brought the matter to Miami-Dade County and to the Dade 
County Commission, as I did with the Broward County Commission, 
and both commissions reacted to that.
    You might want to ask in New Orleans, and as well in 
Houston, if they are conducting background checks on their 
docks.
    We have found here, at least in Port Everglades, that these 
same people had a very high number of driving vans that would 
park right next to docks that they were unloading, so you can 
readily see the problems that you would have with the 
containers and with some of these stories that I'm sure you've 
heard elsewhere about containers being opened and contraband is 
found.
    Even though we are very concerned about terrorism in the 
ports, and port security, we also must not neglect our 
responsibility with regard to drugs and the importation of 
these types of substances as well as the exportation of stolen 
vehicles and other things that X-ray technology can detect.
    By the way, I wanted to acknowledge Carol Landy who is in 
the audience, who is now with the county--you stole her from 
me--but she was very active in that particular area.
    One final question. We see the National Guard at the 
airport and we see them here. By their very presence in their 
camouflage uniforms with their weapons is itself a great 
deterrent. What type of training do these people have in law 
enforcement?
    Mr. Allen. That question is probably left for the Guard 
themselves, but in addition to their law enforcement training, 
we also provided additional training, both through the Broward 
Sheriff's Office, as well as by our staff here at the port, in 
port specific training, before they were put into their posts.
    Mr. Shaw. I assume that Miami-Dade does the same thing?
    Mr. Towsley. That's correct. We had a dual training program 
which, I believe, is the same, or is similar to what occurred 
with Port Everglades, where on the first day they came in port 
training was put on by the Coast Guard, overall and generally, 
with respect to the seaports.
    On the second day they were then split specifically for the 
unique characteristics for law enforcement, the ID badges, and 
what's being done in Port Everglades.
    The other group that was in Miami was then specifically 
trained for what features they needed to know with respect to 
Miami, and then in Miami, as they are in Broward, they're 
working under the direction of local law enforcement.
    Mr. Shaw. I'm just wondering how efficient the use of funds 
are in bringing these people away from their regular jobs and 
putting them in the ports and airports around the country?
    Obviously it's to the county's advantage that the Federal 
Government picks up the tab for these men and women that come 
in and help out, but is that the most effective use of 
personnel?
    I was a mayor once, and if the Federal Government was 
willing to pay for it, I would take it. I'm sure things haven't 
changed.
    Mr. Allen. And it goes beyond that, Congressman. We have 
been very appreciative for the support that we have had from 
the Guard. They have been very professional. They have been 
well trained, and they came up to speed very quickly with the 
nature of commerce that has to go on within the port, and as 
measured against any need for enhanced security.
    The Guard is a stopgap measure and they are a stopgap 
measure to allow local law enforcement to staff up to the New 
World, to the new realities of this world. It's also a stopgap 
to allow us to put the infrastructure in place that reduces the 
staffing requirements which have an ongoing expanse.
    Whereas, the Guard, or local law enforcement personnel have 
an annual cost that continues to build and build and that's why 
we need to put the infrastructure in place to reduce that 
staffing requirement.
    Mr. Shaw. We would be in big trouble without them. I do not 
want to minimize the benefits of it, but they are not 
considered to be a permanent force and you are. Thank you.
    Senator Breaux. Thank you very much, Mr. Towsley. Mr. 
Allen, thank you very much for being with us and thank you for 
your testimonies.
    We will now invite our next panel which consists of Ted 
Thompson who is the executive vice president of the 
International Council of Cruise Lines.
    Perhaps, Ted, you can introduce yourself and your 
colleagues so we can get to know some of your colleagues in the 
cruise line industry.

           STATEMENT OF TED THOMPSON, EXECUTIVE VICE

       PRESIDENT, INTERNATIONAL COUNCIL OF CRUISE LINES;

        ACCOMPANIED BY STEVE NIELSEN, VICE PRESIDENT OF

         CARIBBEAN AND ATLANTIC OPERATIONS FOR PRINCESS

      CRUISES; CAPTAIN BILL WRIGHT, SENIOR VICE PRESIDENT

         OF SAFETY AND ENVIRONMENT FOR ROYAL CARIBBEAN

           INTERNATIONAL; AND NICK SCHOWENGERDT, VICE

          PRESIDENT OF SECURITY, HOLLAND AMERICA LINE

    Mr. Thompson. Good afternoon, Mr. Chairman. With me today 
are Captain Nick Schowengerdt, director of policy and plans for 
Holland America Line and WindStar Cruises.
    Captain Bill Wright, senior vice president for safety and 
environment with Royal Caribbean Cruises Limited which is 
comprised of two lines, Royal Caribbean International and 
Celebrity Cruises.
    And Mr. Steve Nielsen, vice president of Caribbean and 
Atlantic for Princess Cruises.
    These gentlemen are accompanying me today to be able to 
provide industry operational specific answers to questions you 
may have.
    Mr. Chairman, I have written testimony, and with your 
permission, ICCL would like to submit this for the record to 
summarize all statements.
    Senator Breaux. Without objection that will be----
    Mr. Thompson. Thank you. The International Council of 
Cruise Lines is a North American industry trade association 
representing 16 of the largest cruise vessel operators.
    Last year, ICCL members carried over seven million 
passengers on over 90 ships and ports around the world. The 
majority of these passengers were carried out of U.S. ports and 
a majority of those from the Port of Miami and Fort 
Lauderdale's Port Everglades. Thus, it is appropriate that we 
are having this hearing here today.
    Mr. Chairman, from previous testimony before your 
Subcommittee in October, you already note that passenger ships, 
and terminals, are required to have comprehensive security 
plans that are acceptable to the U.S. Coast Guard.
    ICCL worked closely with the Coast Guard a number of years 
ago to provide a security plan template for use by our members 
to assure that each of these plans contains the required 
information in similar format to ensure consistency and 
thoroughness.
    Because of these plans, and the industry's existing 
security posture, this industry was able to immediately 
increase its security measures to the highest level after the 
tragic attack on our country on September 11th.
    In addition, ICCL initiated daily telephone conference 
calls between cruise companies' security operations managers 
and government agencies. Participants included Coast Guard 
Atlantic Area Command, Coast Guard Pacific Area Command, Coast 
Guard Headquarters, Coast Guard Marine Safety Offices, the 
Department of Transportation, the Office of Intelligence and 
Security, the U.S. Immigration and Naturalization Services, and 
other agency representatives as needed.
    Again, the purpose was to harmonize actions around the 
country, to facilitate ship relocations when the Port of New 
York was closed to cruise ships, to identify best practices for 
use by everyone, to share information and control rumors and to 
standardize requirements and procedures.
    These gentlemen who are here with me today are three of 
those in the front line of those conference calls and who are 
front line facilitators who are responsible for stepping up 
security, relocating ships to alternative ports, and ensuring 
the consistent safety and security of passengers, not only 
here, but around the world, sir.
    Mr. Chairman, I have mentioned harmonization and 
consistency several times now. These elements are absolutely 
critical in our mind to the success of all efforts addressing 
terminal ship, passenger, and cruise security. We are currently 
working with the Coast Guard at several levels to identify and 
implement long term security posture that is not only high, but 
also sustainable and one that is flexible enough to meet the 
demands of each of the unique ports that we visit either as 
turnaround port or port of call.
    Because our members travel worldwide, it is important to 
assure that appropriate adequate security is provided at each 
port of call in whichever country we visit.
    To assist in obtaining consistency around the world, ICCL 
has recently sent a letter to all Caribbean states urging a 
review and timely upgrade of security at those ports.
    We have, and we will continue to participate fully in the 
U.S. Coast Guard initiative at the International Maritime 
Organization to develop worldwide security regulations and 
guidelines.
    Mr. Chairman, ICCL members continue to operate at the 
highest level of security as you saw today. The visible 
measures that the passenger will see on arriving for a cruise 
actually exceeds those at airports.
    Not only are passenger and handheld items screened by x-
rays and magnetometers, but all baggage, 100 percent, is 
screened by x-ray, hand search, explosive sniffing dogs, or 
other methods, and all storage coming aboard are screened and 
all passengers, personnel, and crew and visitors, are 
thoroughly identified and vetted before boarding.
    Passenger lists with pertinent information are provided to 
the Coast Guard, Customs, and INS, at least 96 hours in advance 
of sailing for their screening.
    Wayside terminal and waterside security, where necessary, 
is coordinated with the Coast Guard and other Federal, State, 
and local authorities.
    A lot has been done since September 11, but a lot remains 
to be done. Let us assure you that ICCL and its cruise line 
members will be at the forefront of these activities, 
development, and implementation of technology and striving 
partnership with responsible agencies to assure that cruising 
remains a safe and secure vacation option.
    Thank you, Chairman. We would be pleased to answer any 
questions that you may have.
    [The prepared statement of Mr. Thompson follows:]

    Prepared Statement of T. E. Thompson, Executive Vice President, 
                 International Council of Cruise Lines

    Mr. Chairman, my name is Ted Thompson. I am the Executive Vice 
President of the International Council of Cruise Lines (ICCL). I am 
pleased to appear before you today regarding security at our nations 
seaports. With me are: Captain Nick Schowengerdt, Director of Policy 
and Plans for Holland America Line and Windstar Cruises; Captain Bill 
S. Wright, Senior Vice President, Safety and Environment, Royal 
Caribbean Cruises Ltd. comprised of two brands, Royal Caribbean 
International and Celebrity Cruises Inc.; and Mr. Steve Nielson, Vice 
President, Caribbean and Atlantic, Princess Cruises.
    ICCL, and the cruise industry are shocked and deeply saddened by 
the attack on America and the tremendous loss of life that resulted 
from this national tragedy. In light of these recent events, we are 
continuing operations at a very high level of security and ICCL, 
together with our cruise lines member operators, are working with all 
appropriate federal, state, and local agencies to ensure that traveling 
Americans are protected to the maximum extent possible.
    ICCL is a non-profit trade association that represents the 
interests of 16 of the largest cruise lines operating in the North 
American cruise market and over 73 Associate Member companies that are 
cruise industry business partners and suppliers. ICCL member cruise 
lines serve major ports in the United States and call on more than 400 
ports around the world. Last year, ICCL's member lines carried more 
than 7 million passengers on 95 vessels.
    We welcome the opportunity to appear before the Subcommittee today 
to review and discuss our industry's efforts to ensure the safety and 
security of all of our passengers and crew. The cruise industry's 
highest priority is to ensure the safety and security of its 
passengers. A cruise ship is unique in that it is inherently secure 
because it is a controlled environment with limited access. In order to 
maintain this secure environment, cruise lines have established strict 
and highly confidential ship security procedures that meet or exceed 
strict ship and passenger terminal security procedures that are set 
forth by the International Maritime Organization (IMO) and by the 
comprehensive regulations established by the U.S. Coast Guard (USCG). 
In the United States, the USCG oversees the enforcement of these 
security measures. Regulations address both passenger ship and 
passenger terminal security and outline methods to deter unlawful 
activities onboard passenger vessels.
    In 1986 the IMO Measures to Prevent Unlawful Acts Against 
Passengers and Crew address concepts such as: restricting entry to 
sensitive locations including the ship's navigation bridge and the 
terminal's security control center for example; monitoring the flow of 
materials and consumable supplies brought onboard a ship; and providing 
perimeter security around the terminal and ship. Security procedures 
within these measures include the use of metal detectors, x-ray 
machines and other screening techniques to prevent unauthorized entry 
or carriage of weapons onboard.
    In 1996, the USCG implemented an Interim Final Rule on Security for 
Passenger Vessels and Passenger Terminals, which was finalized in 
October of 1999. These regulations require ship and passenger terminal 
operators to submit comprehensive security plans to the USCG for review 
and acceptance. In this regard, the plans for all ICCL member lines 
have been submitted and accepted by the USCG. The security plans, which 
are sensitive law enforcement documents and therefore not available to 
the public, include the following major components:
    <bullet> Identification of three levels of security and specific 
procedures to implement and follow at each level
    <bullet> Procedures to prevent or deter unlawful acts onboard
    <bullet> Procedures to prevent or deter introduction onboard of 
weapons and other unauthorized items.
    <bullet> Procedures to prevent and or deter unauthorized access to 
vessels and restricted areas
    <bullet> Designation of an onboard Security Officer
    <bullet> Security training for all crew members
    <bullet> Procedures for coordinating the ship security plan with 
the terminal security plan
    <bullet> Directions and procedures for reporting of violations and 
unlawful acts
    <bullet> Annual security audits for each ship
    <bullet> Review of security plan amendments and security plan 
implementation by the USCG
    Passenger vessel security plans and their amendments are reviewed 
by USCG Headquarters and examinations are conducted by the local 
Captain of the Port to verify that all security practices and 
procedures are effective, up-to-date, and are being followed.
    As a result of this extensive security planning, the cruise 
industry was one segment of the transportation industry that was able 
to immediately move to a heightened security posture as a result of the 
attacks on September 11, 2001. While implementation of Level III 
security, the highest level of security, was directed by the U.S. Coast 
Guard at U.S. ports, ICCL member operators reported that they 
implemented security measures consistent with this declaration even 
before it was ordered.
    Security measures at U.S. cruise terminals, and onboard ICCL member 
cruise ships remain at Level III--the highest possible. Passenger 
vessel security measures include passenger-screening procedures which 
are similar to but actually exceed those found at airports. This 
includes l00% screening of all passenger baggage, carry-on luggage, 
ship stores and cargo, and also includes higher levels of screening of 
passenger identification. Official passenger lists are carefully 
reviewed and proper identification is ensured before anyone is allowed 
to board the vessel. Even before the attacks of September 11, and as a 
result of long standing memorandums of understanding, all passenger 
lists were made available to the INS and Customs for screening. 
Passenger identification is now subject to even stricter scrutiny and 
the industry is working closely with the INS and other federal agencies 
to ensure that any passenger suspected of being on any agency's' 
lookout list are reported to the federal authorities for further 
action.
    Another component of Level III Security requires ship operators to 
restrict access to authorized personnel and to identify restricted 
areas on the vessel that require positive access control such as 
intrusion alarms, guards, or other measures to prevent unauthorized 
entry. Restricted areas on a vessel will include the bridge, the engine 
room, and other areas throughout the ship where operations are 
conducted. Other onboard security measures, not generally discussed for 
obvious reasons, are employed to maximize shipboard security and to 
deter unauthorized entry and illegal activity. Every vessel has a 
trained security staff responsible for monitoring activities and 
responding to any suspicious activity that may jeopardize the safety of 
the passengers and crew.
    For many years, the cruise industry has been pro-active in 
developing effective security measures and has looked for ways to 
increase passenger safety. In fact, most ICCL member lines now utilize 
advanced technologies to control access to our vessels. The Passenger 
Access Control System, that has been installed on many of our members' 
vessels, utilizes a passenger identification card that incorporates a 
picture of the passenger that is taken at the time of boarding. This 
picture and other passenger identification information and cruise 
information is placed into an onboard computer system. During the 
course of a cruise, the identification card is presented each time a 
passenger departs or boards the vessel. The picture appears on a 
computer screen that is matched against the person's face for 
identification purposes before they are allowed to board the ship. The 
card can also be used for room access and for onboard purchases. This 
new technology is only part of an overall onboard security system that 
further enhances the proper identification of all passengers and crew 
boarding the vessel.
    Since 1998, ICCL and its member operators have been members of the 
U.S. Interagency Task Force on Passenger Vessel Security. This group, 
which includes representatives from the Departments of Transportation, 
Defense, State, and the U.S. Coast Guard and others, meets every 60 
days to discuss emerging security issues, receive updated threat 
information, and address specific security concerns. Starting on 
September 12th, the ICCL Security Directors and Operations Managers 
teleconferenced on a daily basis with this group and other federal 
agencies such as the INS, USCG Atlantic and Pacific Area Commands, 
major USCG Marine Safety Offices and port authorities to efficiently 
communicate, resolve problems and control rumors. These daily 
conference calls lasted for almost six weeks before being scaled back 
to twice a week and finally eliminated, as the issues were resolved. 
That information exchange was proven to be valuable both to our member 
lines and the federal agencies involved. As the need arises, we 
continue to jointly address matters impacting both ship operations and 
security. We are committed to providing the highest levels of security 
for our passengers and to working with appropriate federal agencies to 
address additional security measures that may become necessary.
    Mr. Chairman, we in the cruise industry, believe that our security 
plans and working relationships with regulatory agencies are 
accomplishing many of the goals of the Port and Maritime Security Act 
of 2001. The collaboration and cooperation of all agencies and industry 
exhibited since the events of September 11 are also accomplishing many 
of the goals of this legislation. Of course all of the additional 
security measures that we have put in place are consuming resources and 
money at a rapid pace. We would urge you to ensure that there is 
adequate funding that comes with any additional mandates that are 
placed on agencies, ports or industry through the legislative process.
    While we as an industry together with our Coast Guard partners seek 
to identify a long-term sustainable security posture, we believe that 
new technologies must be developed and brought on line in the security 
battle. These technologies may include detection of exotic explosives, 
plastic weapons, and biological and chemical agents. In the wake of the 
Anthrax attack, there were many hoaxes, and instances of spilled 
powders, sugar and coffee creamers that caused concern. This industry, 
as with other segments of the travel industry, went to great lengths to 
minimize the impact of these incidents. But, from an abundance of 
caution approach, all had to be treated with the utmost seriousness. 
Methods need to be developed, tested and certified to rapidly identify 
and/or rule out agents such as Anthrax so as to give decision makers 
the necessary tools to make well-reasoned and scientifically supported 
decisions.
    Neither the Coast Guard nor the ports currently have the resources 
necessary to provide continuous effective waterside security patrols in 
those ports where this may be necessary. In some ports, the cruise 
ships themselves have been asked or directed by the Coast Guard Captain 
of the Port, to lower lifeboats or rescue-boats to assist in the 
waterside security equation. While this has been possible in the short 
term, we do not believe that the ships themselves, whether they be 
cruise ships or cargo ships, should be placed in a position of 
utilizing lifesaving appliances for purposes other than lifesaving. It 
is our belief that waterside security zone enforcement and other 
waterside patrols, if not conducted by federal or state agency assets, 
should be the responsibility of the local port authority.
    Mr. Chairman, these are challenging times--not only from a security 
standpoint but also from a business point of view. But as I stated 
before, the highest priority of the cruise industry is, and will always 
be, to provide a safe and secure vacation experience for our 
passengers. Our industry pledges its cooperation working in partnership 
to sustain the level of security necessary to maintain the outstanding 
safety record of the cruise industry
    This country can and will unite to exercise one of our most 
cherished freedoms, the freedom to travel. It is up to us to ensure 
that we protect not only the freedom, but to ensure that those whose 
goal it is to disrupt our way of life are not successful. We, in the 
cruise industry, will do everything possible to protect those who 
choose this outstanding and safe vacation option.
    Thank you for the opportunity to appear before you today.
    GOD BLESS AMERICA.

    Senator Breaux. Thank you, Mr. Thompson. I appreciate that 
your colleagues have been helpful to us. We have had some 
meetings and discussions and we thank them for being with you.
    I take it what you're saying is that we have for the cruise 
industry a security plan that's in place, that the Coast Guard 
has reviewed and signed off on. Is that what you're saying?
    Mr. Thompson. Yes, sir, that's correct. The U.S. Coast 
Guard regulations that were finalized, I believe in 1997, 
require that each passenger ship and each passenger terminal 
have a security plan, and the plans for the ships are submitted 
to the Coast Guard Headquarters for approval, and the 
acceptance and the plans for the terminals are submitted to 
each of the local captains of the ports for acceptance. Each of 
the ship's security plans, sir, has a port addendum for each 
port that they visit to handle the interface issues.
    Senator Breaux. I take it that this was done prior to 911?
    Mr. Thompson. Yes, sir.
    Senator Breaux. What, if anything, is different in those 
plans after 9/11, that were not there, or were not a part of 
the plan before 9/11?
    Did they do anything to change, to beef up, to rearrange 
those plans in any way to address other concerns since 9/11?
    Mr. Thompson. I will ask my colleagues to answer that, but 
I would like to preface any comments they may have by saying 
that our plans recognize three levels of security. The highest 
level was intended to address a threat, or a specific event on 
a specific ship or any specific port.
    Unfortunately, the events of September 11th required that 
highest level of security to be entered nationwide. In general, 
that's about the absolute highest we could get to without 
getting into specific operational procedures.
    Senator Breaux. Is there anything different in the security 
plan after 9/11 than there was before 9/11?
    Mr. Thompson. No, sir, not at this point. We're working 
with the Coast Guard, however, to identify how those plans 
should be identified for the long term posture.
    Senator Breaux. So that we are not doing anything 
differently after 9/11 than prior to 9/11 with regard to 
security?
    Mr. Thompson. Operationally, we are, sir. The plans 
themselves have not been changed, but operationally, I would 
like my colleagues to answer that.
    Mr. Wright. I can comment on that Senator. On behalf of 
Royal Caribbean Cruises Limited, let me, first of all, thank 
the Senator for the opportunity to give testimony on a subject 
that's clearly critical for our country and for the entire 
maritime community.
    As Ted has mentioned, the security plans that were approved 
were three levels based on security threats that were 
presented.
    Immediately after 9/11 we went to Level III, the highest 
level, which required a number of steps, the main ones being a 
complete identification of passengers against their baggage, 
100 percent screening of all baggage, and carry on baggage, 
which was loaded on board the ship, plus--and this is a big 
one--all the provisions in storage that go on board one of our 
vessels and that's happening to this day.
    Senator Breaux. You say carry on. Sorry to interrupt you, 
but you're talking not just about luggage that a passenger 
carries himself personally on the ship, but also a 100 percent 
screening which is checked baggage as well.
    Mr. Wright. Exactly. One of the real success stories of the 
aftermath of 9/11 has been the ability of our industry to 
almost instantaneously begin to work very very closely with the 
Coast Guard, taking advantage of the very close relationship 
that we have had for so many many years.
    We were in the position, both in terms of understanding 
each other, I think, with a clear mutual professional respect 
to start addressing the big questions right away.
    What's happened now, as it was mentioned, Level III 
security was intended for a specific threat against a specific 
target for a specific period of time or for a finite period of 
time.
    There are many aspects of that that are difficult to 
sustain over the long term, but we have been able to do, again 
because of the advantage of having that established 
relationship with the Coast Guard, we have already on the table 
for the Coast Guard's evaluation, an alternative plan which 
would give a new security profile to address the future.
    Whereas, bringing down the current Level III, maintaining 
basically everything that we're doing today, but that no longer 
being the highest level of security, having other options that 
we could go to if there should, in today's environment, be a 
specific threat against a specific target.
    Senator Breaux. There are two other areas and let me ask 
the first one.
    We got through one of these terrific debates in the Senate 
between the House and the Senate, and Congress, about who are 
the inspectors at the airports.
    Facts really came out indicating that the airlines were 
hiring inspectors to do the inspections at the airports based 
principally on who can do it the cheapest, or who gets the low 
bid, or whoever could do it the cheapest was hired.
    It wasn't so much a focus on who could do it the best, but 
who could do it with the cheapest amount of money involved 
because the airlines were in charge of it.
    I saw today that you have private security forces. For 
instance, I would imagine that we probably have a similar 
arrangement with the other cruise lines as well.
    The argument by some in Congress was that in order to 
ensure the viability of those inspections, you cannot do it on 
the cheap. So what we've done in Congress, and not without a 
great deal of argument, and debate, was to ensure in the future 
that all inspectors of luggage on airplanes will be done by 
Federal employees and Federal inspectors and not by private 
contractors.
    The arrangement you have now, doing it through private 
contractors and based probably on the low bid type of an 
arrangement, do any of you have any reason to be concerned?
    Mr. Nielsen. In the case of Princess Cruises, it's not 
based on low bid as opposed to the airlines, perhaps where the 
perception is, where it's security that's provided by the 
airport, as opposed to the airline.
    I think in the cruise industry the perception is that 
security is provided by the cruise line, so it's incumbent upon 
ourselves to make sure that we have the best security possible.
    If asked, the economy comes into play in consideration, but 
it's not the driving force. It's the ability of the contractor 
to provide the service at a reasonable price.
    Senator Breaux. Do you all have standards when you set out 
hiring those inspectors?
    The argument was that many of the people doing the 
inspection at the airports could not read and write, never went 
to high school, and I see now that they're saying that they 
don't necessarily have to have a high school degree even if 
they worked for the Federal Government.
    There was a lack of confidence by the general public in the 
inspectors at the airports, I think it's safe to say, and many 
of them that you dealt with were being paid absolute minimum 
wage, they stayed on the job for very short periods of time, 
and there was a huge turnover where they would stay for 2 or 3 
weeks, a month, then left and started flipping hamburgers 
somewhere because it might have been easier and was a less 
boring job, so that the quality of what we wanted at those 
inspection sites, and particularly on airplanes, was not what 
it should have been.
    How do you ensure that you don't have the same problem with 
the people who are doing your baggage inspection?
    Mr. Schowengerdt. This is Captain Schowengerdt with Holland 
America Line. We do have standards and they are built right 
into our security plans. They are written standards and they 
become a part of the competitive bid process when we hire 
contract security companies and we do perform due diligence on 
the company to ensure that they meet the standards.
    The standards we use will vary from State to State because 
generally what we do is adopt the State standards for the State 
of the port that we're calling at.
    If we find those standards to be missing some key elements 
that we think are important to the cruise ship's security, then 
we will add that in as part of our written standards as well, 
but they are clear standards and they are enforced by due 
diligence on the part of the cruise lines.
    Senator Breaux. My final point. I think, after looking at 
the security operations of Port Everglades, I was very 
impressed by the way things had been arranged and work here.
    I happen to think personally that the biggest threat to a 
ship and a cruise line is not so much one that departs from the 
Port of New Orleans, or the Port of Houston, and Port 
Everglades, or the Port of Miami, but the two greatest 
vulnerabilities are just like what happened with the U.S. Cole 
that had a very small vessel that was docked alongside a Navy 
vessel that blew out a side killing a number of very important 
and innocent sailors.
    Second, the problems that we have, not when you call on a 
U.S. port, but when you call on an island port which may not 
have the same standards and to the same degree of inspectors 
where you offload people and then putting them back on the 
ship, take on supplies, bring on liquor, food, or whatever, in 
a port that's not a Port Everglades or a Port of Miami type of 
a facility, it seems to me that keeping ships away from your 
ship in the outlying areas is something incredibly important.
    Are you all satisfied with the degree of security in those 
areas?
    Mr. Schowengerdt. To the extent that we are not, Senator we 
generally are able to provide that security ourselves.
    Your concerns are very well founded and the same ones that 
we have had, and have systematically dealt with, I think. The 
one thing to keep in mind is that there's a big difference 
between turning around the ship and taking off a complete load 
of passengers and reloading the vessel and just calling in a 
calling port.
    What we have done is to restrict the taking on of stores 
only to ports where we have absolute confidence in their 
security.
    For example, if we run a 7-day cruise, out of Port 
Everglades, we don't take stores on anywhere else other than at 
Port Everglades, so that we're not taking stores in Ochoa Rios 
or in Cancun or in any other place.
    We are not taking on new passengers in these ports. We are 
only having our passengers go ashore for the day and then come 
back at night and when they come back they are screened again.
    Anytime somebody goes off the ship, they are checked off in 
the automated security system, and when they come back, they 
are rescreened and rechecked in again through the automated 
security system.
    The waterside security is the one thing that we're probably 
least able to deal with on our own in another port and those 
are issues, of course, of law enforcement.
    Senator Breaux. We will ask the Coast Guard. They have more 
responsibility for those vessels that are alongside while 
they're docked in port and I know that you have some of your 
vessels out there as a warning signal as much as anything else.
    Thank you, gentlemen.
    Congressman Shaw.
    Mr. Shaw. Briefly. Senator, I don't know whether you caught 
the story on the television this morning where airport security 
had strip searched Congressman John Dingel.
    Senator Breaux. They had strip searched Congressman John 
Dingel, yes.
    Mr. Shaw. I guess he answered some of their questions. It 
only goes to show that they're much more conscientious than 
they were.
    But it also shows, I think, that they didn't speak English 
because I'm sure he was giving them an earful during that 
particular episode.
    I, as you, was very impressed by what we saw and I have 
just one question and that is: This 100 percent x-ray, is that 
something that's required by the Coast Guard or is that 
something that you had imposed upon yourself?
    Mr. Thompson. That's something that we imposed upon 
ourselves in agreement with the Coast Guard.
    There's a Coast Guard guideline that supplements the 
regulation code, the Navigation Vessel Inspection Circular, 
that we had discussed thoroughly with the Coast Guard as it's 
being developed, and agreed with them that at Level III that 
100 percent check baggage and carry on items would be fully 
screened.
    Mr. Shaw. So the 100 percent has been since 9/11?
    Mr. Thompson. Yes, sir.
    Mr. Shaw. You have been able to gear up for that this 
quickly, so that should tell us something about what we should 
be doing in the airports today and perhaps we're following a 
little bit behind, but the Senator and I were both very 
impressed.
    There must be a tremendous level of comfort that your 
passengers have. I think we really need to get the word out 
with the type of job you all are doing because you should be 
commended for it.
    Flying is certainly safe, and taking a cruise is certainly 
one of the safest things you can do except when it comes to 
your waistline which suffers because everything is so good.
    Thank you all very much.
    Mr. Wright. Congressman, if I might just add to those 
comments. One of the reasons as an industry that we were able 
to do that--and it's also addressing the Senator's last 
question--by virtue of the size of our vessels we have for many 
years been taking our security infrastructure with us.
    So when we're hitting these other ports that do not perhaps 
have the equipment in place we have that equipment on board.
    The equipment was there and it's simply a question of being 
able to complement the existing infrastructure, so we can take 
it with us.
    Mr. Shaw. Much of this technology is, particularly if it's 
a photo, where you have some type of card that we could 
possibly use at the airport to hasten the security checks, 
particularly for people such as the Senator and myself who fly 
all the time, and are known to people in the airport. We can 
just get through there real quickly with our frequent flyers 
which would shorten the lines that have been developing at the 
airports. But I was very impressed with the job that you're 
doing.
    Senator Breaux. Perhaps when we get to the 100 percent 
screening of all baggage that's checked on the airlines, we 
could develop a system whereby my checked luggage from New 
Orleans to Port Everglades which then goes on a cruise ship, we 
know that that luggage has been inspected 100 percent in New 
Orleans, it should be on a secure path so that you don't have 
to redo it here at the port.
    Because, if it's checked in New Orleans, and it was 
inspected 100 percent, and then it was put on the plane, and 
then from the plane to here at the Fort Lauderdale Airport, 
there ought to be a way of guaranteeing the security of that 
same checked luggage all the way to the ship so that you don't 
have to do it again.
    As Congressman Clay said, I think you're doing a terrific 
job, but I don't know that we have to do it twice if you can 
guarantee the integrity from the airport to the ship when it's 
has already been inspected.
    Mr. Schowengerdt. Senator, there are a number of things 
like that that could be done. One of the things that I would 
like to emphasize is that the reason that we have done as well 
as we have is because of the extraordinary planning that was 
done, and because of the historically very good and the very 
admirable cooperation between the cruise line industry and the 
Federal agencies that are involved.
    We've been working on the security plans for a good number 
of years, and things worked for us on 9/11 because of that 
advanced planning, and because of the relationship that existed 
between us, the Coast Guard, Customs, INS, so we were able to 
immediately increase to the top level of security because we 
had faced the issues, we had figured out how we could do it and 
we also had figured out that it's going to be extraordinarily 
costly.
    But that comes with the territory.
    To give you an example. Our security costs, since September 
11th, have approximately doubled for all of our ports around 
the world.
    We do the same thing in all ports and we're consistent when 
going from one to another. We do not just do things here in the 
United States or just Canada. Our costs have doubled.
    But we knew that would happen because we had done this 
before and the Coast Guard knew what to expect because we had 
done that advanced planning. This is a real success story and I 
don't think that should be lost along the way.
    Senator Breaux. I agree. The bottom line will be the 
legislation that will provide help and actual assistance to 
those ports for those in charge of security.
    Second, from what we've seen, the word should be made very 
clear and very loud that taking cruises from U.S. ports is a 
very safe type of vacation for enjoyment, and from everything 
that we have seen today, it's very admirable what they do and 
it would be to your credit.
    Thank you, gentlemen.
    Our next panel is comprised by Rear Admiral Jay Carmichael, 
Commander, Seventh District, U.S. Coast Guard accompanied by 
Captain James Watson of the Port of Miami.
    Also appearing with him is Thomas Winkowski, acting 
director, Field Operations for the U.S. Customs Service. John 
Bulger, who is district director for the Miami District of 
Immigration and Naturalization Service, and finally, Anthony 
Zagami, who is president and CEO of Security Identification 
Systems Corporation, which is SISCO.
    We are delighted to have all of you with us and we look 
forward to your presentation. I guess we can start with Admiral 
Carmichael.

           STATEMENT OF REAR ADMIRAL JAMES CARMICHAEL,
         COMMANDER, SEVENTH DISTRICT, U.S. COAST GUARD,
          DEPARTMENT OF TRANSPORTATION; ACCOMPANIED BY
        CAPTAIN JAMES WATSON, CAPTAIN OF THE PORT, MIAMI

    Rear Admiral Carmichael. Good afternoon, Mr. Chairman. We 
were honored with your presence on the Coast Guard Cutter Janis 
this morning and that you had the opportunity to observe up 
close the waterfront security.
    Senator Breaux. Where was that cutter built?
    Rear Admiral Carmichael. That cutter was built at Bollinger 
Shipyards and it's a great platform.
    Senator Breaux. And, in what State is it located in?
    Rear Admiral Carmichael. Yes, sir! That's your State, 
Senator!
    Senator Breaux. Glad to get something in here for 
Louisiana.
    Rear Admiral Carmichael. It's a great platform and it's 
absolutely the ideal platform for the mission that it performs.
    Senator Breaux. Now you can get some more.
    Rear Admiral Carmichael. On behalf of the Commandant, 
Admiral Jim Lloyd, I thank you for allowing us to testify about 
the challenges that we face here in the Southeast United States 
with regard to port security and maritime security.
    We applaud the on-going efforts of the Congress to bring a 
focus to enhance port security in the pending legislation.
    Mr. Chairman, I have a longer statement for submission and 
I would ask for your consent that my statement be entered into 
the record.
    Senator Breaux. Without objection.
    Rear Admiral Carmichael. Mr. Chairman, as a former 
Commanding Officer of a ship at sea one of my major concerns 
was a fire while we were underway, but I had some sense of 
security because I knew that I had a crew that would respond to 
the alarm in what we call ``an all hands evolution'' and that 
they would save the ship.
    On the morning of September 11, 2001, the port security 
committee in Port Everglades, which had been created earlier in 
the year, as you have heard, met in an emergency session and 
all hands in the crisis security response teamed to 
significantly enhance the security of this port.
    The Coast Guard Marine Safety Office Captain of the Port, 
Captain Jim Watson, who is with me here today chairs that 
committee.
    Mr. Chairman, the Coast Guard is an integral member of the 
port security team.
    We bring to that team our military, multi-mission, and 
maritime character and competencies and with our broad 
authority and experiences we are a leader in the evolving 
maritime homeland security strategy.
    The maritime transportation system is far more valuable 
than those people understand, but yet, it is vulnerable.
    Together, with all of the maritime stakeholders we are 
reducing those vulnerabilities to the best of our ability. The 
maritime transportation system here in South Florida has four 
key waterborne components.
    Petroleum, containerized cargo, recreational boating and 
the issue that's on the table today is the burgeoning cruise 
ship industry.
    The Coast Guard's objectives regarding maritime homeland 
security involves positively controlling the movement of 
shipping into the port, increasing our knowledge of a vessel's 
cargo, people approaching our coastline, increasing our 
presence within the port for deterrence and response, 
inventorying people for infrastructure, conducting assessments 
of threats, vulnerability, and consequences, but most 
importantly, reaching out to all of the other stakeholders in 
ports for a coordinated and sustained security effort.
    Overall, our unified goal has been to enhance the public's 
confidence in the security of the marine transportation system 
by reducing its vulnerability to disruption.
    In the early days following the 11th of September, a Coast 
Guard patrol boat steamed vigilantly alongside a cruise ship 
escorting it into port and during that escort they observed 
passengers on the cruise ship behind the rail cheering our 
presence. That was the highest complement we could be paid, but 
also, I believe, was a reflection of results, results in 
enhancing public confidence in the maritime transportation 
system.
    Today, sir, we stand watch supporting a continued increased 
level of port security and this stands side by side with our 
other No. 1 mission of search and rescue.
    Among other activities, we are conducting vulnerability 
assessments. We are obtaining advance arrival notification with 
regard to cargo and passengers. We are conducting boarding at 
sea by armed boarding teams and we are escorting ships.
    We are patrolling established security zones. We are 
conducting oversight of the passenger terminal security plans 
and I could not be more proud of the Coast Guard's men and 
women of the Seventh Coast Guard District for their surge 
effort.
    Our trademark of agility, flexibility, Maritime law 
enforcement competency, knowledge of the ports and the working 
relationship that you've heard about with our partners in the 
port arena has enabled us to serve effectively and to carry out 
security functions.
    During this surge, all hands have worked extremely hard and 
long hours without breaks.
    Thank you, Mr. Chairman, and Congressman Shaw, for your 
support for the recently passed supplemental budgetary 
appropriation. This will allow us to restore program hours for 
our surface aviation assets as well as restoring readiness and 
provide funding for our activated reservists.
    The bottom line is that through the tremendous effort of 
the all hands and stakeholders in the port, Mr. Chairman, the 
marine transportation system continues to function.
    We are currently analyzing all aspects of our contribution 
to maritime homeland security to establish what we would call 
the ``New Normalcy'' and it is our North Star mission.
    But while we're trying to sustain this mission, we also 
have major concerns regarding rebalancing resources among all 
of our other missions to return to interdiction of illegal 
drugs, of migrants, the protection of at-risk fisheries, and 
the conduct of marine safety inspection, investigation, and 
environmental protection activities.
    These are all important to the national security and well 
being of our country.
    This rebalancing effort is particularly difficult in the 
Southeast United States given its extensive coastline, numerous 
ports and inlets and proximity to foreign countries.
    Just last Saturday, as I looked at the radar screen of 
activities that the men and women of the Seventh District are 
performing, I saw repatriation of five rescued migrants to 
their home country, the interdiction and apprehension of a 
suspected smuggling go fast boat, the transporting of 80 
Haitian migrants who were stranded on an isolated island, the 
diverting of a helicopter from a port security patrol in Tampa 
Bay to intercept a suspect private airplane that unfortunately 
crashed into a building in Tampa, responding to two grounded 
fishing vessels in an ecologically sensitive area of the Dry 
Tortugas National Park to remove the oil, and participating in 
over 20 search and rescue cases.
    Performing all of this while continuing to enhance the port 
security role, using the same resources, people, boats, and 
planes that are essential for all of those missions.
    In conclusion, Mr. Chairman, the Coast Guard is the leader 
of America's maritime security and it is helping to define the 
strategy for the way ahead.
    We are committed to continuing the protection of our 
Nation, it's citizens, and marine transportation system.
    As you have seen, this enhanced security is an all hands 
evolution of all stakeholders in the port as well as all hands 
in the Coast Guard.
    I thank you for your continuing support of the U.S. Coast 
Guard and I will be happy to answer any questions.
    [The prepared statement of Rear Admiral Carmichael 
follows:]

Prepared Statement of Rear Admiral James Carmichael, Commander, Seventh 
        District, U.S. Coast Guard, Department of Transportation

    Good afternoon Mr. Chairman, I am Rear Admiral James Carmichael, 
Commander of the Seventh Coast Guard District headquartered in Miami, 
Florida. On behalf of the Commandant, Admiral Jim Loy, thank you for 
the opportunity to speak to you today about the challenges we face in 
the southeastern United States with respect to our role in port and 
maritime security.
    Protecting America from terrorist threats requires constant 
vigilance across every mode of transportation: air, land, and sea. The 
agencies within the Department of Transportation, including the U.S. 
Coast Guard and the Maritime Administration (MARAD), touch all three 
modes of transportation and are cooperatively linked. This is 
especially true of the maritime mode. Ensuring robust port and maritime 
security is a national priority and an inter-modal challenge, with 
impacts in America's heartland communities just as directly as the U.S. 
seaport cities where cargo and passenger vessels arrive and depart 
daily. The United States has more than 1,000 harbor channels, 25,000 
miles of inland, intra-coastal and coastal waterways, serving 361 ports 
containing more than 3,700 passenger and cargo terminals. This maritime 
commerce infrastructure, known as the U.S. Marine Transportation 
System, or MTS, has long been a Department of Transportation priority. 
The U.S. MTS handles more than 2 billion tons of freight, 3 billion 
tons of oil, transports more than 134 million passengers by ferry, and 
entertains more than 7 million cruise ship passengers each year. The 
vast majority of the cargo handled by this system is immediately loaded 
onto or has just been unloaded from railcars and truckbeds, making the 
borders of the U.S. seaport network especially abstract and vulnerable, 
with strong, numerous and varied linkages direct to our Nation's rail 
and highway systems.
    Port and Marine Security is an immense challenge for our service 
since 95 percent of America's overseas trade moves by sea, through 361 
ports along 95,000 miles of coastline. In the Seventh District, which 
comprises the coastal waters of South Carolina, Georgia, Florida, 
Puerto Rico and the U.S. Virgin Islands, there are 35 major ports and 
extensive coastline in close proximity to foreign countries.

          SOUTH FLORIDA MARITIME HOMELAND SECURITY CHALLENGES

    The maritime transportation system in this region contributes 
substantially to the economic growth and stability of our Nation and 
the quality of life of our citizens. However, it is vulnerable to 
terrorist and criminal elements, and needs commensurate security. The 
cruise ship industry, maritime energy distribution system, and 
container vessel activity are critical to the economy of the region. 
The Port of Miami and Port Everglades are the No. 1 and 2 cruise ship 
ports in the world. More than 6.5 million passengers cruise out of 
South Florida ports each year. During the height of this winter's 
cruise season, as many as 18 cruise ships will be moored in these two 
ports simultaneously. With the capacities of the largest of these ships 
exceeding 5,000 passengers and crew, numerous challenges exist with 
respect to passengers, stores, terminals, and waterside security.
    The ports of South Florida facilitate trade with many Caribbean and 
South American countries. More than 1.5 million twenty-foot equivalent 
units of containers from foreign and domestic ports move through the 
combined ports of Miami and Port Everglades each year. This volume is 
equivalent to the fifth largest container port in the United States.
    The geography of South Florida also presents its own unique 
security challenges. With an extensive coastline, close proximity to 
foreign nations, open ports and plentiful inlets along the Florida Keys 
and Intra-coastal Waterway, numerous opportunities exist for 
surreptitious entry and exploitation by criminal elements and 
terrorists.

  COORDINATION TO ADDRESS THE CHALLENGES OF MARITIME HOMELAND SECURITY

    The Coast Guard has taken a leadership role in coordinating multi-
agency, private sector, and international efforts to prevent terrorism. 
We are uniquely positioned because of our broad civil authorities as a 
law enforcement agency, our military character, and our ability to 
surge operations quickly to meet new threats to our Nation.
    In the aftermath of September 11th, here in South Florida, the 
Coast Guard worked with our interagency partners to improve the 
security posture in our ports. The groundwork undertaken in recent 
years by various maritime security interests facilitated the swift 
implementation of enhanced security measures. For example, the Coast 
Guard Captain of the Port established Seaport Security Committees in 
the Ports of Palm Beach, Miami, and Port Everglades in March 2001. 
These committees are led by an executive steering group that consists 
of three co-chairs (Coast Guard Captain of the Port, Customs Port 
Director, and Port Authority Director), along with representatives from 
the Federal Bureau of Investigation (FBI), Immigration and 
Naturalization Service (INS), Florida Department of Law Enforcement 
(FDLE), County Emergency Management, and local law enforcement.
    Cruise ships are currently met at the sea buoy by armed pilot 
protection teams to ensure these foreign vessels are safely navigated 
into the Port of Miami and Port Everglades. A 100-yard moving 
exclusionary Security Zone is in effect around each cruise ship 
transiting the port. Security Zones are promulgated by the Captain of 
the Port in accordance with the Ports and Waterways Safety Act 
authority for port security. Large fixed Security Zones are also in 
effect where multiple terminals berth groups of cruise ships and 
petroleum tankers. These zones provide buffer areas to enable 
enforcement patrol craft to interdict potentially hostile boats before 
they can reach intended targets.
    Within the passenger terminals, where security plans (Level I) had 
previously required only basic access control and credentialing, the 
Coast Guard implemented Security Level III, the highest level of 
security, established under International Maritime Organization 
guidelines. Security Level III is defined in each Coast Guard approved 
passenger terminal or ship security plan. All luggage and stores are 
screened to detect the introduction of prohibited weapons, 
incendiaries, and explosives aboard vessels.
    Physical security of passenger terminals and water adjacent cruise 
ships in port is critical to effective security. Unlike airports, which 
have physical barriers to protect the runways and tarmacs from 
unauthorized public access, seaports often allow vehicles direct access 
to ship berths, and boats have access to the sides of cruise ship hulls 
unless protected by patrolled security zones. Coast Guard Port Security 
Teams, assigned full time to Port Everglades and the Port of Miami, 
conduct daily security ``sweeps'' of terminals and waterways before 
cruise ship arrivals, making sure guards are on duty, and that 
screening equipment is staffed by qualified personnel. These teams 
conduct continuous patrols of the terminals during passenger operations 
to ensure that cruise lines follow their approved security plan 
procedures.
    Security concerns, especially for high capacity passenger vessels, 
also extend to foreign ports of call. After September 11th, the 
Government of the Bahamas requested Cbast Guard assistance in assessing 
their ports for cruise ship operations. Under a US law (46 USC and 22 
USC) containing provisions that encourage anti-terrorism assistance to 
foreign governments, the Coast Guard Captain of the Port Miami sent 
representatives to Nassau, the fourth ranked cruise ship port of call 
in the world, to begin a dialog on this important security concern.
    Within the ports, a new normalcy for security remains to be 
established by balancing security responsibilities among the Federal, 
State, local and commercial maritime activities. Then those responsible 
must be resourced to execute security measures. The provisions of S. 
1214, H.R. 3437 and Florida's 311.12, the State's Port and Maritime 
Security Act, are bold steps along that path. These bills recognize 
port needs. Senate bill S. 1214 even recognizes private termfials in 
its provisions.

                               CONCLUSION

    In conclusion, the U.S. Coast Guard is a leader in America's 
maritime security and we have taken a leadership role in coordinating a 
multi-agency, public and private sector, and international effort to 
achieve the goals of the Coast Guard's Maritime Homeland Security 
Strategy. The Coast Guard is committed to the continuing protection of 
our Nation, its citizens, and its marine transportation system against 
terrorism, while also maintaining our safety of life at sea, maritime 
law enforcement and environmental protection missions. Thank you for 
the opportunity to share the unique challenges that the Coast Guard 
currently faces in Southeast Florida with respect to our role in port 
and maritime security, and the response being made to address those 
challenges. I also thank you for your continuing support of the Coast 
Guard. I will be happy to answer any questions you may have.

    Senator Breaux. Thank you very much, Admiral.
    Mr. Winkowski.

  STATEMENT OF THOMAS S. WINKOWSKI, ACTING DIRECTOR FOR FIELD 
       OPERATIONS IN SOUTH FLORIDA, U.S. CUSTOMS SERVICE

    Mr. Winkowski. Chairman Breaux, and Congressman Shaw, thank 
you for your invitation to testify and for providing me the 
chance to appear before you today to discuss the efforts and 
challenges of the U.S. Customs Service in processing cruise 
vessel passengers at Port Everglades, Florida.
    My name is Thomas Winkowski. I am the Acting Director for 
Field Operations for South Florida. In my capacity as Acting 
Director, I'm responsible for oversight of the inspection and 
control of international passengers, conveyances, cargo, 
arriving and departing through the seaports and airports of 
South Florida.
    I have oversight responsibility for Miami, Port Everglades, 
West Palm Beach, Fort Pierce and Key West.
    As a major participant in the protection and security of 
our Nation's borders, Customs has taken a lead role in the 
efforts to deny entry of the implements of terrorism into the 
United States.
    The Customs Services enforces over 400 laws and regulations 
for more than 40 Federal agencies. The agency is tasked with 
security and protecting all ports of entry to include air, 
land, and seaports.
    While Customs is able to inspect only a relatively small 
percentage of the massive volume of cargo entering the United 
States each day, we rely on a careful multi-layered targeting 
approach to select goods for intensive examination.
    Our risk management strategy incorporates the use of 
intelligence and advance information from shippers, the 
deployment of sophisticated technologies, and the skill and 
expertise of Customs personnel to sift out suspicious goods 
from the vast ocean of legitimate trade before they enter the 
commerce of the United States.
    In addition, under the direction of Commissioner Robert 
Bonner, the agency is engaging the private sector in a new 
Customs/trade partnership to defend the entire length of the 
product supply chain from penetration by terrorists, or 
elements of terrorism. We are undertaking new initiatives with 
our international partners in an ongoing effort to expand the 
perimeter of inspection away from the port of entry and toward 
the port of origin.
    Port Everglades has acquired specialized equipment in 
advanced technology to assist in the screening and searching of 
cargo and commercial vessels, including VACIS, the Vehicle and 
Cargo Inspection System; a pallet x-ray for inspecting 
palletized cargo; and mobile x-ray vans. We anticipate further 
technology acquisitions.
    Fortunately, the Customs Service received a generous amount 
of funding in fiscal year 2000 in appropriations, and in fiscal 
year 2000, an emergency response supplemental specifically for 
inspection technology as well as additional personnel. We're 
working within the Department of Treasury and the 
Administration to address the deployment of additional 
technology and personnel to support our work, safeguard our 
employees, and protect the integrity of legitimate shipments.
    During fiscal year 2001, 175,000 cargo containers entered 
the United States through Port Everglades and were required to 
clear Customs. Port Everglades is the second busiest cruise 
ship port in the world.
    Customs Inspectors processed an estimated three million 
passengers in fiscal 2001 and expect to significantly exceed 
the number in fiscal year 2002 and beyond.
    With the increased risk of terrorism, and the implements of 
terrorism that could possibly enter through this seaport, 
Customs faces many additional challenges in ensuring security 
while facilitating trade, transportation, and tourism in South 
Florida.
    Coordination among law enforcement agencies is strong and 
there is a working partnership between Federal and private 
sectors. The challenge now is to ensure our ability to secure 
ports while facilitating trade.
    Currently, cruise ship companies are not required to submit 
advanced passenger manifest data to Customs, but we look 
forward to be being able to make this mandatory in order to 
more effectively target and select high-risk passengers and 
crew members for inspection while expediting the lower-risk 
travelers.
    Prior to September 11, 2001, there was no security for 
gaining street access to our port, but thereafter, the National 
Guard's and Broward County Sheriff's units were posted at 
street entrances and are screening vehicles and passengers 
entering the port area.
    We believe that security could be enhanced by installing 
security gates for both access and egress control and by 
screening conveyances and persons existing in the area. We 
believe that we have made an effective start in addressing the 
security measures that need to be taken to ensure the highest 
level of security in the cruise ship environment in Port 
Everglades.
    By working within the Treasury and the Administration, we 
will confront the critical challenges that we face and 
strengthen the seaport security.
    I want to thank you, Mr. Chairman, for this opportunity to 
testify. The U.S. Customs Service will continue to make every 
effort possible working with our fellow inspection agencies, 
with the Administration, with congressional leaders, and the 
business community to address your concerns and those of the 
American people.
    I will be happy to answer any questions you may have.
    [The prepared statement of Mr. Winkowski follows:]

 Prepared Statement of Thomas S. Winkowski, Acting Director for Field 
           Operations in South Florida, U.S. Customs Service

    Chairman Breaux, thank you for your invitation to testify and for 
providing me the chance to appear before you today to discuss the 
efforts and challenges of the U.S. Customs Service in processing cruise 
vessel passengers at the port of Port Everglades, Florida.
    My name is Thomas Winkowski. I am the Acting Director, Field 
Operations for South Florida. In my capacity as Acting Director, I am 
responsible for oversight of the inspection and control of 
international passengers, conveyances, and cargo arriving and departing 
through the seaports and airports in South Florida. I have oversight 
responsibility for Miami, Port Everglades, West Palm Beach, Fort 
Pierce, and Key West.
    As a major participant in the protection and security of our 
nation's borders, Customs has taken a lead role in efforts to deny 
entry of the implements of terrorism into the United States. The 
Customs Service enforces over 400 laws and regulations for more than 40 
federal agencies. The agency is tasked with securing and protecting all 
ports of entry to include air, land and sea ports.
    While Customs is able to inspect only a relatively small percentage 
of the massive volume of cargo entering the United States each day, we 
rely on a careful, multi-layered targeting approach to select goods for 
intensive examination. Our risk management strategy incorporates the 
use of intelligence and advance information from shippers, the 
deployment of sophisticated technologies, and the skill and expertise 
of Customs personnel to sift out suspicious goods from the vast ocean 
of legitimate trade before they enter the commerce of the United 
States.
    In addition, under the direction of Commissioner Robert Bonner, the 
agency is engaging the private sector in a new Customs-trade 
partnership to defend the entire length of the product supply chain 
from penetration by terrorists or the implements of terrorism. And we 
are undertaking new initiatives with our international partners in an 
ongoing effort to expand the perimeter of inspection away from the port 
of entry and towards the point of origin.
    Port Everglades has acquired specialized equipment and advanced 
technology to assist in the screening and searching of cargo and 
commercial vessels, including VACIS (Vehicle and Cargo Inspection 
System), pallet x-ray for inspecting palletized cargo, and mobile x-ray 
vans, and we anticipate further technology acquisitions. Fortunately, 
the Customs Service received a generous amount of funding in the FY 
2002 appropriations and FY 2002 emergency response supplemental 
specifically for inspection technology as well as additional personnel, 
and we are working within Treasury and the Administration to address 
deployment of additional technology and personnel to support our work, 
safeguard our employees, and protect the integrity of legitimate 
shipments.
    During FY 2001, approximately 175,495 cargo containers entered the 
U.S. through Port Everglades and were required to clear Customs. Port 
Everglades is the second busiest cruise ship port in the world. Customs 
Inspectors processed an estimated 3 million passengers in 2001 and 
expect to significantly exceed that number in 2002 and beyond. With the 
increased risk of terrorism and implements of terrorism that could 
possibly enter through this seaport, Customs faces many additional 
challenges in ensuring security while facilitating trade, 
transportation, and tourism in South Florida.
    Coordination among law enforcement agencies is strong, and there is 
a working partnership between federal and private sectors. Our 
challenge now is to enhance our ability to secure ports while 
facilitating trade.
    Currently, cruise ship companies are not required to submit 
advanced passenger manifest data to Customs, but we look forward to 
being able to make this mandatory, in order to more effectively target 
and select high-risk passengers and crewmembers for inspection while 
expediting the lower-risk travelers.
    Prior to September 11, 2001, there was no security for gaining 
street access to our port but thereafter National Guard units were 
posted at street entrances and are screening vehicles and passengers 
entering the port area. We believe that security could be enhanced by 
installing security gates for both access and egress control and by 
screening conveyances and persons exiting the area.
    We believe that we have made an effective start in addressing the 
security measures that need to be taken to ensure the highest level of 
security in the cruise ship environment in Port Everglades. Working 
with Treasury and the Administration, we will confront the critical 
challenges that we face in strengthening seaport security.
    I want to thank you, Mr. Chairman, for this opportunity to testify. 
The U.S. Customs Service will continue to make every effort possible, 
working with our fellow inspection agencies, with the Administration, 
with Congressional leaders, and the business community to address your 
concerns and those of the American people. I would be happy to answer 
any questions you might have.

    Senator Breaux. Thank you very much.
    Mr. Bulger.

STATEMENT OF JOHN M. BULGER, DISTRICT DIRECTOR, MIAMI DISTRICT, 
             IMMIGRATION AND NATURALIZATION SERVICE

    Mr. Bulger. Mr. Chairman, thank you for inviting me here 
today to testify on behalf of U.S. Immigration & Naturalization 
Service. I am pleased to appear here today with sister 
agencies, the Coast Guard, and the U.S. Customs Service.
    I would also be remiss if I did not mention the fine 
cooperation that we received from State and local law 
enforcement, including the Florida National Guard under the 
direction of General Watson, and the Florida Department of Law 
Enforcement, under Commission Moore, and particularly here in 
Broward County, the Broward County Sheriff's Office, under 
Sheriff Ken Jenne.
    As you're well aware, the impact of the cruise ship 
industry on the economy of this State is tremendous, accounting 
for billions of dollars of revenue each year.
    That impact is also directed toward the INS in Florida and 
each year we inspect on average more than five million cruise 
ship passengers at our seaports in Miami, Port Everglades, Port 
Canaveral, Tampa and Jacksonville.
    We are very much aware of how vitally important it is to 
the traveling public and to the industry itself that INS 
accomplishes its inspection missions in a timely and thorough 
manner, but the number of travelers is increasing each year and 
the threats to this Nation's security are now a reality.
    The INS understands the need to modify the inspections 
process to ensure that we're doing everything possible to 
maintain the safety of the public and of our Nation's borders.
    The Miami district has developed and maintains several 
aggressive enforcement operations aimed at deterring illegal 
alien smuggling through our ports of entry. One of our most 
significant actions to date has been the establishment of 
terminal inspection operations at the Miami seaport.
    This initiative, developed with the cooperation between the 
industry and the INS, greatly enhances our ability to deter 
conventional criminal activity and to address increased 
security threats that this Nation now faces.
    You mentioned earlier the comparison between airport 
security and seaport security. At the Miami seaport operation, 
it has become the first in the United States to begin 
processing cruise vessel passengers at a specifically 
designated terminal based Federal inspections site.
    In short, the new facilities were designed to resemble 
international airport style inspection areas. This approach has 
allowed us to increase our enforcement efforts as arriving 
cruise ship passengers are now inspected more thoroughly by INS 
personnel.
    The result is a more secure Federal inspection site that is 
enhancing our enforcement efforts while at the same time 
facilitating travel and efforts are currently underway to 
establish the same inspection process here at Port Everglades 
and we expect that we will be fully operational with this 
facility within 3 months.
    In addition, construction of terminal style facilities is 
underway at the Ports of Tampa and West Palm Beach and we 
expect to be operational with terminal style inspections at 
these facilities within a matter of months.
    While the advantages of such a system are many, I would 
like to focus on two in particular. Those being the capability 
to immediately access realtime data, to enhance INS's ability 
to better protect our borders, and the ability of this new 
infrastructure to facilitate process procedures for the 
traveling public.
    As with the airport inspection process, our terminal style 
inspection facilitates inspection of cruise ship passengers and 
I cannot overemphasize the significance of this system.
    In other words, every person leaving a cruise ship and 
entering the United States is personally inspected by an 
immigration inspector who has access to the same law 
enforcement and security databases found at our established 
facilities at airports of entry.
    This occurs in what is commonly known as primary 
inspection. It is at this stage when an immigration inspector 
has the first two opportunities to identify, or detect known or 
suspected immigration violators.
    Criminals present a threat to this country's national 
security.
    In those instances where we do encounter passengers who 
require more in-depth processing, a referral is made to what is 
called secondary inspection.
    At this stage of the process, the immigration inspector can 
take the time needed to conduct a more thorough investigation 
into a person's status, identity, intended travel plans and 
ultimately the individual's admissibility into the United 
States.
    These terminal style inspections which are now being done 
at Miami, and soon at other ports, will provide us with the 
greatest opportunity to detect and interdict persons who pose a 
threat.
    Regrettably, cruise ships not arriving at a terminal ready 
facility, the INS must board the ship and inspect on board. 
This is still the most common form of inspection, but the least 
desirable. There are no live data hookups for the INS that 
exist on these ships, and therefore, no live queries are 
possible. Rather, there are laptop computers with downloaded 
data that serve as the primary source of intelligence 
information and because of the inadequacies that are associated 
with this procedure the INS is now examining alternative 
approaches to this problem.
    In the interim, one of the measures that the INS has taken 
to bolster our ability with onboard inspections is the use of 
automated passenger information system or APIS as it is known. 
Within the Miami district, I am pleased to tell you that all of 
the cruise lines are now either fully participating with APIS 
or providing advanced passenger information in hard copy which 
we can then check against the interagency boarder inspection 
system.
    The availability of advanced information enables the INS to 
conduct databased checks of passengers prior to the arrival of 
the cruise ships at a port of entry.
    As an interim measure, pending completion of terminal 
facilities here at Port Everglades, the district is conducting 
what I will characterize as a hybrid form of terminal style 
passenger inspection at one of the cruise ship terminals, at 
Cruise Ship Terminal II, which you visited today.
    Under this interim hybrid process, we are using APIS 
information and any potential hits in our computer system that 
are developed are then looked at very closely when those people 
do, in fact, disembark the vessel and it is close in concept to 
the actual terminal style inspection process. What is absent, 
of course, is the secure well-equipped facility in which to 
conduct the inspection.
    The more efficient processing of passengers with terminal 
style cruise ship inspections has resulted in an overwhelmingly 
positive response from our customers, from the passengers, and 
from the crews of these vessels. Disembarkation commences 
immediately upon docking as opposed to passengers remaining on 
a vessel for 3 to 4 hours while the inspection would be 
completed on board.
    This moves passengers off vessels faster and provides for 
more efficient movement of ships, goods and services, all in a 
highly secure and sterile environment.
    In closing, let me say that with the deployment of 
appropriate staffing and new technology in the seaport 
inspections environment, passenger facilitation, and thorough 
law enforcement, safe secure ports of entry are fully 
obtainable goals.
    Thank you, Mr. Chairman, for this opportunity to testify 
today.
    [The prepared statement of Mr. Bulger follows:]

    Prepared Statement of John M. Bulger, District Director, Miami 
            District, Immigration and Naturalization Service

    Mr. Chairman, thank you for inviting me here today to address you 
on behalf of the U.S. Immigration and Naturalization Service (INS). I 
am pleased to appear before you today with two of our sister agencies--
the Customs Service and the Coast Guard--to discuss port security 
issues.
    The Miami District Office has developed and maintained several 
aggressive enforcement operations aimed at deterring illegal alien 
smuggling through our ports-of-entry. One of our most significant 
actions to date has been the establishment of terminal inspections 
operations at the Miami seaport. This initiative, developed with 
cooperation between industry and the INS, greatly enhances our ability 
to deter conventional criminal activity, and to address increased 
security threats this Nation now faces.
    The Miami seaport has become the first in the United States to 
begin processing cruise vessels at a specifically designated terminal-
based Federal inspection site. In short, the new facilities were 
designed to resemble international airport-style inspection areas. This 
new approach has allowed us to increase our enforcement efforts, as 
arriving cruise ship passengers are now more thoroughly inspected by 
INS personnel. The result is a more secure Federal inspection site that 
is enhancing our enforcement efforts while at the same time 
facilitating travel.
    Before I discuss in greater detail our actions and accomplishments 
with regard to cruiseship passenger processing and the similar efforts 
underway at other INS seaports in Florida, I would like to provide you 
with an overview of the Miami District Office.

                        MIAMI DISTRICT OVERVIEW

    The Miami District is composed of five branches: Adjudications, 
Investigations, Detention and Removal, Inspections, and Management. All 
the branches have a specialized role in enforcing the Immigration and 
Nationality Act.
    Our area of responsibility consists of the entire State of Florida 
and inspections pre-clearance facilities at three locations in the 
Bahamas. The District is headquartered in the northern-most area of the 
city of Miami. Approximately 300 of the District's 1,200 government 
employees and 200 contract employees are assigned to the headquarters 
complex.
    The remainder of the District's employees and contractors are 
assigned to three sub-offices located in Orlando, Tampa mid 
Jacksonville; the pre-clearance facilities in the Bahamas; a 
naturalization office in Miami; 16 ports-of-entry; a satellite office 
in West Palm Beach; a service processing center; and five application 
support centers in Miami-Dade, Broward and Palm Beach counties.
    Our Adjudications section operates out of the main district office 
in Miami and a naturalization office in downtown Miami. We also 
undertake a full range of adjudication services in our offices in 
Orlando, Tampa, Jacksonville and West Palm Beach. The two principle 
types of applications we processed are for permanent residence status 
and for citizenship.
    The Investigations Division in the District staffs offices in 
Miami, and sub-offices located in Jacksonville, Orlando and Tampa. The 
District supports the INS interior enforcement strategy by focusing 
resources in areas that provide a visible positive impact. The major 
thrust of the enforcement unit focuses on the identification and 
removal of incarcerated criminal aliens, and in identifying, arresting, 
prosecuting and dismantling criminal organizations that traffic in 
human cargo and obtain immigration benefits and documents illegally. 
Additionally, the District supports specialty units such as the 
Organized Crime and Drug Enforcement Task Force, Joint Terrorism Task 
Force, Violent Gang Task Force and Anti-Smuggling Unit which focus on 
specific enforcement activities and coordinate with other Federal, 
State, and local law enforcement entities.
    In fiscal year 2001, the District continued to maintain an 
aggressive posture on locating and removing criminal aliens. As a 
result, the Detention and Removal Operations Division removed 2,255 
criminal aliens from the United States. In addition to our focus on 
enforcement efforts, our success is also attributed to our active 
campaign with foreign government officials to expedite the delivery of 
travel documents to criminal aliens from countries such as Haiti and 
Jamaica.
    The Miami District has also maintained its focus on enhancing the 
management and operations of the Krome Service Processing Center--our 
principal detention center in the District. Efforts to more efficiently 
manage that facility date back to 1996, highlighted by the then-
District Director's assessment that the continued detention at Krome of 
unaccompanied minors, family units, and females, was not in the best 
interest of the detainees or the Service. The District worked 
aggressively to relocate unaccompanied minors, as evidenced by our 
current agreement with Catholic Charities to use the Boystown facility 
in Miami-Dade County. We then continued these efforts to the next level 
by removing family units from the Krome facility. Today, family units 
are held in more appropriate conditions of detention at a local hotel. 
In December 2000, we completed another phase of this effort by 
permanently relocating the Krome female detainee population to the 
Turner-Guilford-Knight (TGK) Correctional Center in Miami.

                          PASSENGER PROCESSING

    A significant aspect of our mission, and one that is certainly 
evident within the Mi, District Office, is that of screening and 
processing applicants for admission to this country. The Inspections 
Division of the District is responsible for 16 international ports-of-
entry throughout the State of Florida and the Bahamas, including the 
two largest cruiseship terminal operations in the world, those being 
the Ports of Miami and Ft. Lauderdale. Total international passenger 
counts have increased by approximately 4 percent in each of the last 
four fiscal years. In fiscal year 2001, District staff inspected 
5,442,668 passengers that arrived on 13,455 passenger ships and cargo 
vessels at District seaports.
    As I mentioned at the beginning of my remarks, the Miami Seaport 
has become the first in the United States to begin processing cruise 
vessels at a specifically designated terminal-based Federal Inspection 
Site. I would like now to discuss in greater detail our view of the 
passenger processing environments at Florida seaports.
    I mentioned earlier in my testimony that the Ports of Miami and 
Everglades are home to some of the largest cruiseship operations in the 
world. As you are well aware, the impact of the cruiseship industry on 
the economy of this State is tremendous, accounting for billions of 
dollars of revenue each year. That impact is also directed toward the 
INS in Florida, as each year we inspect, on average, more than five 
million cruiseship passengers at our seaports in Miami, Port 
Everglades, Cape Canaveral, Tampa and Jacksonville. We are very much 
aware of how vitally important it is to the traveling public and the 
industry itself that the INS accomplish its Inspections mission in a 
timely and thorough manner. With the number of travelers increasing 
each year, and the threats to this Nation's security that are now a 
reality, the INS understands the need to modify the inspections process 
to ensure that we are doing everything possible to maintain the safety 
of the public and of our Nations borders.
    I am extremely pleased to say that through the efforts of this 
District, our Eastern Regional Office, and INS Headquarters, and 
certainly with the cooperation and energy of the cruiseship companies 
themselves, we have implemented at the Port of Miami the same 
inspection process the INS uses at all air ports-of-entry in the United 
States. Efforts are currently underway to establish the same inspection 
process here at Port Everglades. We expect that we will be fully 
operational with this facility within 3 months. In addition, 
construction of terminal-style facilities is underway at the Ports of 
Tampa and West Palm Beach. We expect to be operational with terminal-
style inspections at those two facilities in a matter of months. While 
the advantages of such a system are many, I would like to focus on two 
in particular: those being the capability to immediately access real-
time data to enhance the INS' ability to better protect our borders; 
and the ability of this new infrastructure to facilitate procedures for 
the traveling public.
    As with airport inspection processes, our terminal-style inspection 
process at the Port of Miami facilitates the inspection of cruiseship 
passengers. I cannot overemphasize the significance of this system. In 
other words, every person leaving a cnuseship and entering the United 
States is personally inspected by an Immigration Inspector who has 
access to the same law enforcement and security databases found at our 
established facilities at air ports of entry. This occurs at what is 
commonly referred to as ``primary inspection.'' It is at this stage 
where an Immigration Inspector has the first true opportunity to 
identify or detect known or suspected immigration law violators, 
criminals, and certainly, those who could present a threat to this 
country's national security. In those instances where we do encounter 
passengers who require more in-depth processing, a referral is made to 
what is called ``secondary inspection.'' At this stage of inspection, 
an Immigration Inspector can take the needed time to conduct a more 
thorough investigation into a person's status, identity, intended 
travel plans, and ultimately, the individual's admissibility to the 
United States. These terminal-style inspections which are now being 
done at the Port of Miami, and soon at the other ports I mentioned, 
provide us with the greatest opportunity to detect and interdict 
persons who pose a threat to this country.
    Regrettably, for cruise ships not arriving at a terminal-ready 
facility, INS must board the cruise ship and inspect onboard. This is 
still the most common form of inspection, but the least desirable. No 
live data hook-ups for INS exists on these ships, therefore no live 
queries are possible. Rather, laptop computers with downloaded data 
serve as the primary source of information. Because of the inadequacies 
associated with this procedure, INS is now examining alternative 
approaches to this problem.
    In the interim, one of the measures the INS has taken to bolster 
our abilities with onboard inspections is the use of the Automated 
Passenger Information System, or APIS as it is known. Within the Miami 
District, I am pleased to tell you that all cruise lines are now fully 
participating with us in the advance presentation of passenger manifest 
information. The availability of Advance Passenger Information enables 
the INS to conduct database checks of passengers prior to the arrival 
of a cruise ship at a port of entry.
    Also as an interim measure, pending the completion of the terminal 
facility here at Port Everglades, the District is conducting what I 
will characterize as a hybrid form of terminal-style passenger 
processing at one of the cruiseship terminals. Under this interim 
hybrid process, we are using the APIS information and any potential 
``hits'' we develop from our advance database inquiries, to conduct 
dockside inspections of passengers as they disembark a vessel. It is 
close, in concept, to the actual terminal-style inspection process. 
What is absent of course, is the secure, well-equipped facility in 
which to conduct the inspection.
    The more efficient processing of passengers with terminal style 
cruiseship inspections has resulted in an overwhelmingly positive 
response from our customers, the passengers and crew of these ships. 
Disembarkation commences immediately upon docking as opposed to 
passenger remaining onboard for 3 to 4 hours while inspections are 
completed. This moves passenger off vessels faster, and provides for 
more efficient movement of ships' goods and services, all in a highly 
secure and sterile environment.
    In closing, let me say that with the deployment of appropriate 
staffing and new technology in the seaport inspections environment, 
passenger facilitation, thorough law enforcement, and safe, secure 
ports-of-entry are fully attainable goals. Thank you for the 
opportunity to testify today.

    Senator Breaux. Thank you very much, Mr. Bulger.
    Next is Anthony Zagami.

        STATEMENT OF ANTHONY ZAGAMI, PRESIDENT AND CEO 
     OF SECURITY IDENTIFICATION SYSTEMS CORPORATION (SISCO)

    Mr. Zagami. Thank you, Senator Breaux and Congressman Shaw. 
I am pleased to appear before the Subcommittee today to discuss 
access control and accountability technology to the ports and 
passenger vessels.
    My name is Anthony Zagami and I am the president and CEO of 
Security Identifications Systems Corporation.
    The tragic events of September 11th have changed the way 
most Americans think about security in the transportation 
industry.
    However, even before the catastrophic events, SISCO had 
identified vulnerabilities in controlling access to the 
maritime sector of our critical infrastructure.
    U.S. law enforcement agencies, as well as the passenger 
cruise industry have always been an abiding concern over who 
was boarding vessels, but did not have an efficient, reliable, 
cost-effective method of access control and accountability.
    In 1995, SISCO developed a high-speed access control 
accountability system just for this purpose providing a 
security system that delivers greater protection for cruise 
ships and that's found in many of the other transportation 
industries including the airlines.
    The system's grand name is A-PASS, for automated personnel 
assisted security screening, was so successful that it is being 
used by every major carrier including Carnival, Princess, Royal 
Caribbean and Celebrity Cruise Lines.
    A-PASS employs an ID card issued to passengers, crew, 
vendors, or visitors. At the vessel embarkation point, a card, 
which resembles a credit card, allows the holder to access the 
ship by means of embedded technology.
    The system captures a color photograph of the visitor in 
digital format and correlates this to the ship's authorized 
database and displays it on a monitor at the ship's access 
control station.
    The guest simply inserts their card into a card reader 
every time they enter or leave the ship. The entire display, 
and the verifica-
tion process, takes less than 1 second from the time the card 
is entered into the reader.
    The system creates a realtime audit trail of passengers, 
crew, vendors, and business aboard the ship at any point in 
time. Authorized personnel and law enforcement personnel can 
view an individual's activity record along with a full colored 
photograph to identify and verify their identity.
    The system is preprogrammed to electronically provide 
SOLAS, or safety of life at sea, approved reporting on 
passengers and crew prior to the ship's departure.
    A-PASS can provide tailored reporting along with specific 
passenger activity logs to U.S. Customs, Immigration, and other 
law enforcement facilities and agencies in support of their 
investigative requirements.
    Since its creation, A-PASS has been a critical law 
enforcement tool in numerous criminal investigations. The same 
proven cost-effective technology is representative of proactive 
industry initiative that is applicable beyond the market for 
which it was first developed.
    This technology is readily available for other segments of 
the transportation industry such as airlines and would create a 
mechanism for tracking and seamlessly transferring of 
information to law enforcement agencies for homeland defense.
    Terrorists and other criminals rely on concealment and 
their ability to obscure identities and movement to achieve 
their objectives.
    Systems such as A-PASS, and mobile FAST PASS, are effective 
tools in eliminating the cover of concealment and covering the 
threats of both passenger and crew and support the 
infrastructure to the U.S. marine community.
    One of the other areas of government and industry that must 
come together is information sharing. We have the technology to 
be able to work with government as far as the commercial 
industry goes and being able to manage and merge these 
technologies together and to be able to provide an 
infrastructure across the board will help all the agencies as 
well as the commercial enterprises.
    I thank you for your indulgence today and I thank you for 
allowing me to testify before the committee.
    [The prepared statement of Mr. Zagami follows:]

  Prepared Statement of Anthony Zagami, President and CEO of Security 
               Identification Systems Corporation (SISCO)

    Mr. Chairman, my name is Anthony Zagami, and I am the President and 
CEO of Security Identification Systems Corporation (SISCO). I am 
pleased to appear before the Subcommittee today to discuss access 
control and accountability technology for ports and passenger vessels.
    The tragic events of September 11 have changed the way most 
Americans think about security in the transportation industry. However, 
even before this catastrophic event, SISCO had identified 
vulnerabilities in controlling access to the maritime sector of our 
critical national infrastructure. US law enforcement agencies, as well 
as the passenger cruise industry, have always had an-abiding concern 
over who was boarding vessels, but did not have an efficient, reliable, 
cost-effective method of access control and accountability.
    In 1995, SISCO developed a high-speed access control and 
accountability system for just this purpose, providing a security 
system that delivers greater protection for cruise ships than is found 
in any of the transportation industry, including airlines. The system, 
brand named A-PASS (Automated Personnel Assisted Security Screening) 
was so successful that it is being used by every major passenger 
carrier, including Carnival, Princess, Royal Caribbean and Celebrity 
Cruise Lines.
    A-PASS employs an ID card issued to passengers, crew, vendors or 
visitors, at the vessel embarkation point. The card, which resembles a 
credit card, allows the holder access to the ship by means of embedded 
technology. This technology captures a color photograph of the visitor 
in digital format, correlates it to the ship's authorized visitor 
database, and displays it on a monitor at the ship's access control 
station. The guest simply inserts their card into a card reader every 
time they enter or leave the ship. The entire display and verification 
process takes less than one second from the time the card is entered 
into the reader.
    The system creates a real-time audit trail of passengers, crew, 
vendors and visitors onboard the ship at any point in time. Authorized 
personnel and law enforcement personnel can view an individual's 
activity record, along with a full color photograph to identify or 
verify their identity. The system is pre-programmed to electronically 
provide SOLAS (Safety Of Life At Sea) approved reporting on passengers 
and crew prior to the ship's departure. A-Pass can also provide 
tailored reporting, along with specific passenger activity logs to U.S. 
Customs, Immigration, or other law enforcement agencies in support of 
their investigative requirements. Since it's creation A-PASS has been a 
critical law enforcement tool in numerous criminal investigations.
    This same proven, cost-effective technology is representative of a 
proactive industry initiative that is applicable beyond the market for 
which it was first developed. This technology is readily adaptable for 
other segments of the transportation industry, such as the airlines, 
and would create a mechanism for the tracking and seamless transfer of 
information to law enforcement agencies for Homeland Defense.
    Terrorists, and other criminals, rely on concealment and their 
ability to obscure their identities and movement to achieve their 
objectives. Systems such as A-PASS, and the mobile FAST-PASS, are 
effective tools to eliminating their cover of concealment, and counter 
the threat to the passengers, crew, and support infrastructure to the 
US maritime community.

    Senator Breaux. Thank you, Mr. Zagami. We thank you all 
very much and we thank all the members of the panel.
    Let me start, Admiral, with you. It seems to me, and again, 
I think I said it earlier, as an amateur just observing, the 
biggest threat to some of the large vessels is the type of 
threat that we had with the U.S. Cole when a small vessel had 
pulled alongside loaded with high-level explosives and blew a 
hole in a military naval vessel.
    If that's a correct assumption, what is the Coast Guard 
doing in working with the ports to ensure the security of these 
vessels when they are, in fact, in port and not?
    Rear Admiral Carmichael. Yes, sir. Mr. Chairman, we have 
established security zones under current authority to establish 
exclusionary areas around the cruise ships while they're docked 
and those exclusionaries are patrolled.
    We do not patrol those solely with Coast Guard resources, 
but we have partnered with both the local and State law 
enforcement community to provide that necessary presence to be 
able to intercept any vessels that would otherwise have some 
other motive to approach such a vessel.
    Senator Breaux. Let's assume, for the sake of argument, 
that I were to load up a go fast boat tonight on one of the 
islands right off this coast with high-level explosives and 
arrive off the outer marker off Port Everglades, and my intent 
was to come right down that channel and then pull alongside the 
QE II--which I imagine leaves at 5 o'clock so it will not be 
here--but assuming she's still docked here, and my job was to 
pull up to that vessel maybe a 45-foot vessel, that's totally 
loaded with explosives, and then pull up alongside the QE II 
while on a suicide mission, and just detonate it, what stops, 
hopefully, me, or anyone else from being able to accomplish 
that?
    Rear Admiral Carmichael. Sir, we would just hope that we 
would have some intelligence so that one could address that 
threat farther away once it got into the port.
    We are working to improve that intelligence picture of what 
we would call the maritime domain awareness picture with 
greater surveillance offshore and greater intelligence overseas 
and try to push the boarder out as far as we could to address 
that threat.
    If we didn't have the intelligence to address it far off 
our coast, and it did get inside the port, then it would be the 
responsibility of those law enforcement resources that are 
patrolling the security zone that has been established outside 
the pier where the QE II is currently docked.
    Senator Breaux. If that vessel is coming over from the 
islands, would it be tracked at any point when it entered the 
channel? You don't have a control system?
    Rear Admiral Carmichael. No, sir, we do not have a vessel 
control system, a radar system here that tracks incoming 
vessels at this particular port.
    Senator Breaux. Not to be an alarmist, but I could really 
take that boat from Bimini and hit the outer marker and just 
keep right on coming in and go right into the side of the QE 
II.
    Rear Admiral Carmichael. Sir, I think the awareness of that 
particular scenario is very high with the law enforcement folks 
who are on our platforms out there. They are alert to that and 
I think they can do whatever they needed to do to stop that 
from happening.
    Senator Breaux. Do they have the fire power if that vessel 
just decided to keep coming right on in through your perimeter 
and to pull alongside a vessel to stop it?
    Rear Admiral Carmichael. Sir, they carry weapons, and I 
suppose in the scheme of risk assessment it's an issue that 
needs to be analyzed with whether we have all the tools that 
are necessary on board the platforms right to stop that.
    Senator Breaux. I noticed that you had alongside the QE II 
one of their lifeboats basically that is stationed out there?
    Rear Admiral Carmichael. Yes, sir.
    Senator Breaux. I take it that it's unarmed?
    Rear Admiral Carmichael. It is unarmed, yes, sir.
    Senator Breaux. I saw two sheriff's boats, center console, 
20-foot category type of a vessel. Are they armed?
    Rear Admiral Carmichael. Yes, sir, they are.
    Senator Breaux. With what?
    Rear Admiral Carmichael. Side arms, I believe, sir.
    Senator Breaux. Hand guns?
    Rear Admiral Carmichael. Yes, sir.
    Senator Breaux. How many Coast Guard small vessels are 
patrolling that perimeter?
    Rear Admiral Carmichael. Sir, we have several vessels that 
are stationed at Station Fort Lauderdale, that from time to 
time, share responsibility for patrolling.
    At any one time we have vessels out there on a 24-hour 
basis that are patrolling the security zone. It is not 
necessarily just Coast Guard, but it's a shared operation, a 
coordinated operation with the other law enforcement folks in 
the area.
    Senator Breaux. Are you comfortable with the ability of the 
system that we have set up now to permit that type of attack on 
a vessel in port?
    Rear Admiral Carmichael. Sir, we reduced the vulnerability 
in the vulnerability context in which we are currently working.
    If we had a specified threat, I think we would put more 
resources out there to try to address it if we knew that there 
was specifically something coming, but the vulnerability has 
been reduced by the presence, sir.
    Senator Breaux. I congratulate you and Customs for the 
recent drug bust on the Miami River which I think occurred just 
yesterday.
    You talked about preliminary information. Obviously, that 
had a major factor in finding out what that ship had or did 
have on it and we congratulate you for that.
    Obviously, that has to be one of the ways of preventing 
those types of attacks is the preliminary information that one 
is being planned.
    You have a unique situation in this port as far as the 
access to the high seas that's right there. They don't have a 
lot of steps to stop the traffic before it gets right into the 
middle of the port.
    Rear Admiral Carmichael. Yes, sir.
    Senator Breaux. Mr. Winkowski, Mr. Bulger, both Congressman 
Clay Shaw and I were merging your two agencies a few minutes 
ago.
    I'm not sure what kind of reaction we will get from the 
heads of those agencies, but I can only imagine what I could 
get.
    But is there enough cooperation, and sharing of 
information, or is there anything, Mr. Bulger, in your 
operation that the Coast Guard has that you cannot get that you 
would like?
    Mr. Winkowski, is there any information that Mr. Bulger 
has, or that Admiral Carmichael has that you would like to 
have, that you don't have, or is there any information that any 
of you three gentlemen has that the other does not have that 
you would like to have that you do not have access to?
    Mr. Winkowski. It's been my experience, Senator, that the 
relationship between the Customs Service and INS and the Coast 
Guard is outstanding.
    I know, as a Port Director here at Miami International 
Airport, that regularly recurring meetings took place between 
myself and the INS Port Director sharing intelligence, sharing 
of information, the APIS system, the Advanced Passenger 
Information System, is a system that is shared amongst 
Immigration and certainly, obviously, the Customs Service.
    My strong sense is, as the Acting Director of Field 
Operation, and I have been in the position 4 days, that our 
relationship with the Coast Guard is outstanding and there's a 
lot of back and forth information and new strategies and better 
ways of conducting the business that we do.
    Senator Breaux. Is there any information that Mr. Bulger 
has that you suspect that you would like to have that you don't 
get?
    Mr. Winkowski. No.
    Senator Breaux. Mr. Bulger.
    Mr. Bulger. No. The bulk of the information that we have 
that is of value to both of our agencies is contained in that 
interagency boarder inspection system along with the State 
Department information and has been online for a good many 
years now and serves as a real foundation for our cooperation 
between the two agencies.
    The other thing that I would point out here, and throughout 
Florida, and particularly in South Florida, the cooperation 
that exists among all the Federal agencies, as well as State 
and local law enforcement, is something that is truly 
remarkable.
    There are a number of task forces that are in place now and 
most recently the Governor's office has established seven zones 
of deterrence for anti-terrorism.
    The local version of that, which incorporates State, local 
and Federal law enforcement, is under the direction of both the 
U.S. attorney, and the chair here is the Sheriff of Broward 
County, Ken Jenne, and that serves as a real clearinghouse for 
information and a formal mechanism for the kind of intelligence 
information sharing that's so necessary to combat terrorist 
activity.
    Senator Breaux. That is one of the real problems where at 
any time in an operation we have got so many divisions of 
government involved and some of them are not even here.
    The FBI is not here. They have to be involved in terrorist 
threats. We have got the CIA for international terrorism and 
they have got information and the FBI has information.
    In the past, they haven't shared it very well and that has 
created a problem. The Coast Guard is involved in this and we 
have got other military institutions involved.
    We have Customs. We have Immigration. We have got so many 
different parts of our government that are involved in this and 
the problem is the cooperation and the coordination between the 
various agencies within our own government.
    That is why I always go back to the point, ``When 
everybody's in charge, nobody's in charge.'' We have got to 
make sure that there is a great deal of cooperation, otherwise 
you may know a little bit, or you all don't know as much as he 
knows, and he knows more than what you know and everybody will 
be put to a real disadvantage. That is a hard thing to 
accomplish.
    I don't want you all to have meetings to the point where 
you get tired of having meetings, but you have to have shared 
cooperation in all of this.
    Mr. Bulger. Certainly, if I may, Senator, our experience 
here since September 11th, particularly with the Joint 
Terrorism Task Force, which includes assets from a variety of 
agencies headquartered at FBI Headquarters here, that has been 
a real keystone, I believe, in our efforts.
    For example, when we encounter someone at one of our 
airports, or seaports, who appears to be of interest, or may 
have some ties, or leanings toward certain terrorist groups, we 
get immediate response from our special agents assigned to that 
Joint Terrorist Task Force as well as FBI personnel whom are 
assigned to that.
    Senator Breaux. Mr. Zagami, I have two points to raise with 
you. No. 1, the private security forces have gotten an 
incredible amount of criticism in how they have done 
inspections in the airports on the airport's security, and you 
know probably better than I what people have argued as to why 
it wasn't working.
    What does your company do to ensure that those criticisms 
that we heard about with private inspectors in the airline 
security operations is not applied to the inspections that you 
do at ports here in Port Everglades?
    Mr. Zagami. One of the areas that we have concentrated on 
is, very high-speed identification and credentializing is an 
important factor in people going on and off vessels as well as 
airlines.
    The systems that we have developed, and the technology that 
we know of has augmented the human process to eliminate the 
necessity for someone to go back into the system and look at 
credentialing again and again, and if proof positive, every 
time someone boards a vessel, or enters or exits a ship, their 
identity is being tracked.
    They are both time and date stamped and they are following 
a pattern that inspection people can readily rely on and go 
back to and look at it for investigative purposes and for 
checkpoint security.
    Senator Breaux. The system that we saw this afternoon was 
excellent. It showed who was on board and it showed when they 
come back on or if they came back on, but what about inspecting 
all of that luggage that goes on board?
    Mr. Zagami. The next step highly relies on x-ray equipment 
and physical inspection and what's available out there in the 
training of operators. Those are the big issues at the airlines 
and I guess the cruise lines are also facing.
    The critical issue is inspection personnel to know what 
they are looking at.
    The equipment will go so far and give you what the 
parameters are, but the human element involved in identifying 
what it is, whether it's contraband, explosives, or some type 
of biological type of application, is identified readily by the 
individual.
    Senator Breaux. For instance, if it was loading 10,000 
pieces of luggage this afternoon, how long does an operator sit 
in front of that machine looking at it?
    Mr. Zagami. Quite a long time. There's a long time involved 
and it probably shouldn't be more than 2 hours at a clip 
because you will get----
    Senator Breaux. Because I would go to sleep after 30 
minutes.
    Mr. Zagami. Yes. It's a laborious process, so some things 
can get missed.
    Senator Breaux. Is it a legitimate concern if an operator 
stares at that machine for 2 hours, because after an hour, I 
probably wouldn't know what kind of bag it is or I probably 
wouldn't even care.
    Mr. Zagami. I definitely think it's a concern. I think, as 
for the operations part of it, people have to be recirculated 
through the process periodically because otherwise you're going 
to have the syndrome of being hired and that will creep into 
the process and you're going to miss things.
    It's a natural process with human beings. As you go through 
a route of entry, there's a period of time where you're alert 
and then it drops off to a period of non-alertness, and then 
things start to skip. Plus, there are a lot of distractionary 
measures that come into play. There's the design and 
configuration of x-ray machines and where they are placed right 
now are relative to the geometry of the facilities.
    In the future you're going to see much more restrictive 
areas, and much less distraction and people will have more 
procedural effects on what to look for, and how to look for it.
    The equipment itself will start to allow algorithms that 
will also pinpoint some targets right away so that the human 
element can relax a little bit and concentrate on the bulk of 
the transition that's going through the system.
    Senator Breaux. Congressman Shaw.
    Mr. Shaw. A thought just occurred to me while we're sitting 
here, and particularly as Senator Breaux was questioning the 
vulnerability of the ships with respect to some unanticipated 
fast boat coming in that's loaded with high explosives and I 
think it would be very very difficult to stop that type of 
vessel from doing some real damage.
    My question is: Have you all thought or have you considered 
some submerged netting connected to buoys to keep people out of 
those areas and to restrict them at some point from their 
coming into that area at least while the current threat is 
going on?
    Rear Admiral Carmichael. Sir, I believe that there's some 
of that being used in some navy ports around some navy vessels. 
We haven't considered purchasing that for this security zone in 
this port yet, but that's a good suggestion.
    Senator Breaux. Thank you.
    Mr. Shaw. We have had a very good hearing and we are very 
appreciative of you spending your time with us to come down 
here to Port Everglades.
    Senator Breaux. It is always a pleasure to spend any time 
in January in South Florida.
    This is important. We have hearings tomorrow in New Orleans 
and the day after tomorrow in Houston and we will be listening 
to important people just like you and we're all trying to make 
sure what we're doing back in Washington is working with you.
    We are all on the same team here. We all need to work 
together. We are not being critical, and in fact, many of the 
things that we observed here deserves high praise from people 
in other ports to recognize that you have been a leader in many 
areas, and you ought to be commended for that, the cruise 
industry in particular, as well as port officials and our 
Federal officials.
    It has been very helpful and we thank everyone who has 
helped us to put this hearing together, who stay here in this 
area, you have been so helpful and so productive.
    Mr. Shaw. Next time get a better schedule so you can stay 
with us.
    Senator Breaux. With that, that concludes the Subcommittee 
hearing.
    [Whereupon, the Subcommittee adjourned.]
  


</pre></body></html>
